United States
Department of
Agriculture     Office of
                Inspector General
Office of
Inspector
General

No. 51

June 2004       Semiannual Report
                to Congress
                FY 2004—First Half
On the cover: Graphic commemorating the 25th anniversary of the enactment of the Inspector General Act of 1978,
courtesy of the President’s Council on Integrity and Efficiency/Executive Council on Integrity and Efficiency.




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, sex, religion, age, disability, political beliefs, sexual orientation, and marital or family status. (Not all prohibited bases apply to all
programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, D.C. 20250-9410 or call (202) 720-5964 (voice or TDD). USDA is an equal opportunity provider and
employer.
i
ii
Key Challenges and Strategic Goals
To Meet Them

During the last 6 months, we at the U.S. Department of          Finally, our strategic plan addresses not only the
Agriculture (USDA) Office of Inspector General (OIG)            challenges facing the Department but also how the OIG
have been working diligently on our Strategic Plan for          can work better as well. We have developed four
Fiscal Years (FY) 2004-2008. This plan reflects work,           strategic goals for improving OIG—three business goals
introspection, and insight at all levels of the                 to address the three key challenges facing the
organization. It assesses our purpose, our future, and          Department and one management goal on improving
what we must do to provide a worthy return on the U.S.          OIG operations:
taxpayers’ investment. It constitutes a roadmap and
vitalizes our efforts in OIG.                                   1. Support USDA in the Enhancement of Safety and
                                                                   Security Measures To Protect USDA and
As part of our strategic plan, we have identified three            Agricultural Resources and in Related Public Health
key challenges overall for USDA, which constitute the              Concerns
main sections of this report:                                   2. Reduce Program Vulnerabilities and Enhance
                                                                   Integrity in the Delivery of Benefits to Individuals
1. Safety, Security, and Public Health                          3. Increase the Efficiency and Effectiveness With
2. Integrity of Benefits and Entitlements Programs                 Which USDA Manages and Employs Public Assets
3. Management of Public Resources                                  and Resources, Including Physical and Information
                                                                   Resources
To support the Department in these areas, we have               4. Ensure OIG Readiness To Achieve Its Strategic
prioritized our work to focus on five key areas of                 Goals
emphasis:
                                                                Ultimately, our strategic plans, annual plans, budget
•   Public Health and Safety                                    requests, and semiannual reports will work in concert to
•   Physical and Research Security                              present a unified view of historical trends, our current
•   Information Technology Security and Management              situation, ongoing efforts, and future goals, all based on
•   Farm Programs                                               the blueprint of our strategic plan. We are at the
•   Employee Corruption                                         beginning of this process and expect to further refine
                                                                our plans and accomplishment reports as we progress.




                                                          iii
iv
Contents


Message From the Inspector General ..................................................................................................................                           i
Key Challenges and Strategic Goals To Meet Them ..........................................................................................                                    iii
Contents ..................................................................................................................................................................    v
Safety, Security, and Public Health ......................................................................................................................                     1
    OIG Work on Agricultural Security Issues ...........................................................................................................                       1
    Ongoing and Planned Reviews for Agricultural Security Issues ..........................................................................                                    5
    Public Health and Safety .....................................................................................................................................             5
    Ongoing and Planned Reviews for Public Health and Safety ..............................................................................                                    7
Integrity of Benefits and Entitlements Programs................................................................................................                                8
    Feeding Programs ...............................................................................................................................................           8
    Ongoing and Planned Reviews for Feeding Programs ........................................................................................                                 11
    Farm Programs .................................................................................................................................................... 12
    Ongoing and Planned Reviews for Farm Programs ............................................................................................                                13
    Risk Management Agency and Crop Insurance ..................................................................................................                              13
    Ongoing and Planned Reviews for RMA and Crop Insurance .............................................................................                                      15
Management of Public Resources ........................................................................................................................                       16
    Financial Management and Accountability ..........................................................................................................                        16
    Ongoing and Planned Reviews for Financial Management and Accountability ...................................................                                               18
    Information Technology Security and IT Management ........................................................................................                                18
    Ongoing and Planned Reviews for IT Security and IT Management ...................................................................                                         20
    Special Resource Challenges Facing the Forest Service ....................................................................................                                20
    Ongoing and Planned Reviews for the FS ...........................................................................................................                        22
    Grain Inspection, Packers and Stockyards Administration ..................................................................................                                22
Summaries of Audit and Investigative Activities ................................................................................................                              23
Statistical Data .......................................................................................................................................................      24
    Audits Without Management Decision .................................................................................................................                      24
    Indictments and Convictions ................................................................................................................................              30
    Office of Inspector General Hotline ......................................................................................................................                31
    Freedom of Information Act and Privacy Act Requests .......................................................................................                               32
Appendix I: Inventory of Audit Reports
  With Questioned Costs and Loans ..................................................................................................................                          33
Appendix II: Inventory of Audit Reports
  With Recommendations That Funds Be Put to Better Use ............................................................................                                           34
Appendix III: Summary of Audit Reports Released From
  October 1, 2003, Through March 31, 2004 .......................................................................................................                             35




                                                                                         v
vi
Safety, Security, and Public Health


OIG Strategic Goal Number One:                              OIG WORK ON AGRICULTURAL
                                                            SECURITY ISSUES
Support USDA in the
enhancement of safety and                                  The events of September 11, 2001, and heightened
                                                           concern about potential terrorist attacks and threats
security measures to protect                               have added a new dimension to the Department’s
USDA and agricultural                                      missions and priorities. At issue are USDA’s missions to
                                                           ensure the safety and abundance of the Nation’s food
resources and in related public                            supply, from the farm to the table, and to protect the
health concerns.                                           health of American agriculture from the introduction of
                                                           foreign animal and plant pests and diseases. USDA
USDA works to ensure that the Nation’s commercial          must now readily identify its assets, perform security
supply of imported and domestic meat, poultry, and egg     risk assessments, and design and implement
products is safe, wholesome, and correctly labeled.        appropriate safeguards to prevent or deter deliberate
Challenges to this include food-borne illnesses and the    acts to contaminate the food supply, disrupt or destroy
intentional adulteration of meat and poultry and related   American agriculture, or harm U.S. citizens.
food products.
                                                           Safety and Security Measures for Agricultural
• The Food Safety and Inspection Service (FSIS) sets       Commodities Need Upgrading
  standards for food safety; inspects meat, poultry, and
  egg products; informs the public about food safety       In our recent audit of Farm Service Agency (FSA)
  issues; and works with a number of national and          oversight of its inventories of food, feed, and fiber, we
  international organizations.                             found that FSA

• The Animal and Plant Health Inspection Service           • failed to conduct vulnerability and risk assessments
  (APHIS) protects America’s animal and plant                to determine security weaknesses and needed
  resources by safeguarding them from exotic invasive        protections;
  pests and diseases, monitoring and managing pests
  and diseases existing in the United States, resolving    • did not have a clear safety and security policy to
  trade issues related to animal and plant health, and       address the prospect of intentional and widespread
  ensuring the humane care and treatment of animals.         contamination in the handling, transportation,
                                                             storage, and distribution of these commodities;
• The Agricultural Research Service (ARS) works to
  provide the scientific knowledge and technologies        • does not maintain commodity inventory management
  needed to ensure the viability of American                 systems capable of providing timely information to
  agriculture.                                               managers on the location and disposition of
                                                             questionable (i.e., potentially contaminated)
                                                             inventories; and
  For the first half of FY 2004, OIG issued seven
  audit reports relating to safety, security, and public   • does not subject its warehouse examiners to
  health. OIG’s investigations for that key challenge        background investigations.
  during the first half of FY 2004 yielded 2
  indictments, 17 convictions, and more than               We recommended that FSA, in collaboration with the
  $700,000 in monetary results.                            USDA Homeland Security Office, develop food safety
                                                           and security strategies and conduct risk assessments
                                                           for agricultural commodity operations and related
                                                           programs. We further recommended that these risk
                                                           assessments be used as the basis for formulating
                                                           corrective action for our remaining recommendations,
                                                           including that FSA develop and implement security
                                                           action plans and tactical procedures to protect its food,


                                                                                                                       1
feed, and fiber inventories. While FSA generally agreed       facilities, appropriate oversight of foreign visitors at
with our recommendations, they have not yet set a             NPGS facilities, and proper germplasm disposal
target completion date for the necessary risk                 methods, including those for GEOs;
assessments. (Homeland Security Issues for USDA
Grain and Commodity Inventories; Audit Report No.           • ARS take reasonable steps to enhance physical
50099-13-KC)                                                  security at NPGS facilities; and

Better Controls Needed Over Genetically                     • APHIS revise its requirements for movement of
Engineered Germplasm                                          GEOs to prevent unauthorized shipment of
                                                              genetically engineered bioplasm.
The StarLink corn incident—when genetically
engineered corn approved only for animal feed               (Controls Over Plant Variety Protection and Germplasm
appeared in consumer food products—raised public            Storage; Audit Report No. 50601-6-Te)
awareness of biotechnology issues. It also prompted us
to review USDA’s role in controlling genetically            Improved Security Needed Over Chemical and
engineered organisms (GEO), with a specific focus on        Radioactive Materials at USDA Facilities
the National Plant Germplasm System (NPGS). We
focused on NPGS because, in the event of a massive          We audited security controls over hazardous chemical
crop failure or intentional crop destruction, the           and radioactive materials at 33 USDA laboratories. We
agriculture industry would need to use NPGS                 found that while there is generally adequate national
germplasm (living tissue from which new plants could        guidance on the management and protection of
be grown) to restock crops. NPGS would need to know         radioactive materials, there is little indepth guidance on
that its germplasm inventory had not been contaminated      security controls for hazardous chemicals. Instead, each
and that it could accurately identify which of its          USDA agency provides its own definition of hazardous
germplasm stores were naturally occurring in plants         chemicals and determines how its laboratories will
(and, hence, should be used to restock the world’s          maintain inventory records—resulting in chemical
crops) and which were genetically engineered (or GEO).      inventory control problems at some laboratories. Also of
                                                            concern was the absence of a centralized,
We found several weaknesses in NPGS oversight: the          comprehensive listing of hazardous chemicals at the
NPGS handbook does not provide national guidance for        agency headquarters level, which could potentially limit
the identification, shipment, inventory and disposal of     the agencies’ ability to respond in the event of a
GEOs; NPGS cannot always identify which of its              hazardous chemical incident. One weakness we found
germplasms are genetically engineered; because NPGS         that was common to both hazardous chemical and
does not require physical inventories of germplasm,         radioactive materials programs was the lack of policies
most facility managers do not conduct them regularly;       and procedures specifying the minimum level of
facilities lacked uniform written instructions on the       background investigation for personnel with access to
disposal of germplasm—including GEOs; and physical          hazardous materials.
security and oversight of foreign visitors was not always
adequate to prevent theft or contamination. We also         USDA generally agreed with our recommendations to
found that APHIS (which regulates the movement of           require routine physical inventories of chemicals and to
certain GEOs) policies governing the shipment of GEOs       develop a comprehensive, secure inventory, organized
were insufficient; and that it did not adequately ensure    by agency and readily accessible by Department
that interstate shipments of GEOs complied with even        managers, of hazardous materials at USDA
these insufficient policies.                                laboratories. We further recommended that the
                                                            Department develop a monitoring program with site-
ARS, which oversees NPGS activities, and APHIS              specific risk assessments for laboratories housing
generally agreed with our recommendations that:             hazardous chemicals and require USDA agencies to
                                                            improve security measures based on the results of
• ARS issue written guidance requiring documentation        these site assessments. Finally, we recommended that
  of all GEOs entering NPGS, the conduct of routine         the Department implement policies and procedures
  physical inventories of all germplasm storage             specifying the minimum level of background


2
investigation necessary for personnel with access to        • In accordance with new Departmental guidelines, all
hazardous materials. (Controls Over Chemicals and             16 laboratories have developed inventory lists for
Radioactive Materials at USDA Facilities; Audit Report        biological agents, and have forwarded inventory
No. 50601-9-At)                                               information for the National Pathogen Inventory to
                                                              their agency headquarters. The four BSL-3
Security Over Dangerous Pathogens at USDA                     laboratories have requirements in place specifying
Laboratories Is Significantly Improved, but Further           the information the inventory records should contain,
Protections Are Needed                                        and no inventory discrepancies were disclosed
                                                              during our fieldwork at BSL-3 laboratories.
In a March 2002 audit, we found that security over            Laboratories that possessed or used listed agents
biological agents was lax at almost half of the 124           and toxins have reported them to APHIS as required.
USDA laboratories we visited. Because USDA performs
research on animal and plant pathogens, some of which       • Some improvements were still needed, however, in
(e.g., citrus canker) can harm agricultural crops, while      terms of key biosecurity measures for accountable
others (e.g., Avian influenza virus) can cause disease or     records, internal reviews, and cybersecurity systems.
death in animals and humans, the security of these            Also, we found that the Department-wide policy and
laboratories from inadvertent or intentional release of       procedures for BSL-3 laboratories lack key regulatory
pathogens is of extreme importance.                           requirements mandated under the Public Health
                                                              Security and Bioterrorism Preparedness and
To gauge the Department’s progress in safeguarding            Response Act of 2002 (P.L. 107-188).
these dangerous pathogens, we recently made
unannounced visits to 16 laboratories where our 2002        APHIS and ARS officials concurred with our
audit had previously identified deficiencies in physical    recommendations that they give more specific guidance
security, inventory control, and access to laboratory       to BSL-3 laboratories about interpreting and enforcing
areas. Four of the laboratories visited were biosafety      the biosecurity measures listed in the BSL-3 manual
level-3 (BSL) (high risk) laboratories, and 12 were non-    and update the BSL-3 manual to include requirements
BSL-3 (medium- and low-risk) laboratories.                  and regulations published subsequent to the manual’s
                                                            issuance. They also agreed to work with non-BSL-3
We found that agency officials have generally made          laboratories to expedite their implementation of the
great strides to implement biosecurity measures,            appropriate policies and procedures. In response to one
particularly for BSL-3 laboratories. Overall, we noted      particularly sensitive incident found by the audit, APHIS
significant progress during our limited review, although    verified that listed agents, in particular Bovine
some areas continue to need improvement.                    Spongiform Encephalopathy (commonly known as BSE
                                                            or “mad cow disease”), were removed from a strip mall
• All four BSL-3 laboratories have had site-specific risk   facility that had previously been used for testing.
  assessments and are remedying security concerns.          (Followup Review on the Security of Biohazardous
  BSL-3 laboratories have started to implement              Material at USDA Laboratories; Audit Report No. 50601-
  security system upgrades such as fences, new doors        10-At)
  and locks, 18-gauge expanded metal fastenings for
  windows, and proximity card readers.                      Rural Water Systems Face an Elevated Risk of
                                                            Contamination or Interruption of Service in the Face
• The laboratories have implemented stricter                of Manmade or Natural Disasters
  requirements for employees and visitors. Only those
  with the appropriate background investigation may         Through the Rural Business-Cooperative Service
  have unsupervised access to laboratories working          (RBS), Rural Housing Service (RHS), and Rural Utilities
  with high-consequence pathogens. All personnel            Service (RUS), USDA provides needed support and
  lacking the appropriate clearance are escorted at all     funding for basic infrastructure in our Nation’s rural
  times while in high-containment areas as required.        areas. Given the importance of the rural infrastructure
                                                            supported by these programs, we reviewed how each




                                                                                                                   3
program works with participants to identify and address    Department Effectively Used Supplemental
risks related to manmade or natural disasters.             Appropriations for Homeland Security, but Could
                                                           Benefit From Improved Agency Reporting
• Our review of RBS activities and RBS-financed
  facilities did not identify any significant homeland     In a recent audit of USDA procedures for overseeing the
  security risks other than those common to all small      $302 million supplemental appropriation Congress
  businesses. We also found that RBS was proactive in      provided in 2002 to cover USDA homeland security
  identifying those borrowers and applicants for loans     activities, we found that the USDA agencies included in
  that had potentially suspicious purposes (e.g., loan     our review were using the supplemental appropriations
  for purchase of a crop duster airplane, etc.).           for allowable homeland security purposes. However, the
                                                           monthly obligations and expenditures status reports the
• In general, RHS housing activities and related loans     Department requires each agency to submit were not
  did not present any unique risks or vulnerabilities to   always clear and accurate.
  terrorist activity. The community facilities loan
  program borrowers we reviewed had developed and          USDA has implemented our recommendation to require
  implemented effective emergency response plans.          each agency to establish a review process and internal
                                                           controls to identify and correct errors and outdated
• The results of our review at RUS were more               information on the monthly obligations and expenditures
  complicated. The electric and telephone borrowers        status reports. (Allocation and Use of Homeland
  we visited had generally taken steps to plan for         Security Funds; Audit Report No. 50601-7-Ch)
  emergency situations. However, we found that RUS
  water facility borrowers did not assess the              Foreign National Convicted for Smuggling Narcotic
  vulnerabilities of their water systems and prepare       Plant Into U.S.
  effective, updated emergency response plans. The
  10 water systems we reviewed in 2 States were            The OIG participated in an investigation that led to the
  unprepared to address emergency situations and did       arrest and conviction of a Yemeni national for smuggling
  not have effective processes in place to detect and      519 kilograms of khat (a shrub containing cathinone—a
  react to unanticipated hazards—situations that could     schedule-one narcotic) into the United States. In
  lead to interruptions in the supply of clean drinking    addition to the narcotics issue, it is illegal to import khat,
  water in the event of natural or manmade disaster.
  We concluded that it is vital for RUS to assist
  community water systems in assessing
  vulnerabilities, developing effective emergency
  response plans, and implementing the plans to
  address the risks associated with a natural or
  manmade disaster.

In response to our recommendations, RUS agreed to
provide its nearly 8,000 borrowers with technical
assistance for emergency planning over the next 3
years. The OIG, however, believes that the current
global environment warrants that RUS move to more
quickly provide community water facilities with help in
assessing vulnerabilities and developing and
implementing effective emergency response plans to
deal with a natural or manmade disaster. Without such
assistance, rural communities will continue to face an
elevated risk of contamination or interruption in their
supply of clean drinking water. (Survey of Homeland
Security Issues at Rural Development; Audit Report
No. 85099-1-Hy)                                            Some of the captured khat and the box in which it was smuggled into
                                                           the United States. APHIS photo.


4
and the banana leaves khat is generally wrapped in to
                                                           PUBLIC HEALTH AND SAFETY
preserve its narcotic effect, due to the potential for
introducing exotic diseases and pests.
                                                          This area of emphasis includes audit and investigative
                                                          work related to tainted food products, food safety
The subject received 5 years of probation and was fined
                                                          program integrity, intentional or inadvertent
$7,700. APHIS is also proceeding with administrative
                                                          dissemination of animal and plant diseases including
action against the subject. This investigation was
                                                          mad cow and foot-and-mouth disease, threats against
conducted jointly with APHIS, the Federal Bureau of
                                                          and assault of USDA employees, and other issues that
Investigation (FBI), and the New York City Police
                                                          affect or have the potential to affect the physical well-
Department’s Counter Terrorism Bureau.
                                                          being of individuals.

 ONGOING AND PLANNED REVIEWS FOR                          FSIS Improved Controls for the Equivalence of
 AGRICULTURAL SECURITY ISSUES                             Foreign Food Safety Systems

  Agricultural security issues that will be covered in    FSIS determines whether foreign countries and their
  ongoing or planned OIG reviews include:                 establishments have food safety systems and
                                                          inspection requirements equivalent to those of the
  • information technology (IT) security controls in      United States, and randomly reinspects imported meat
    the Risk Management Agency, Economic                  and poultry products from those countries. We
    Research Service, Rural Development (RD),             evaluated FSIS’ procedures for making the initial
    and Foreign Agricultural Service;                     determination of a foreign country’s equivalence and
  • controls over hazardous materials at APHIS;           actions FSIS took in response to OIG’s
  • use of homeland security funds provided by the        recommendations in our June 2000 audit report. In our
    Department to non-Federal research and other          June 2003 audit, we found that FSIS had implemented
    private institutions;                                 controls based on our previous audit and was following
  • controls over issuance of GEO release permits;        its controls for documenting, reviewing, and approving
  • controls over APHIS-owned and -leased aircraft;       the equivalence determinations for
  • transition and coordination of border inspection
    activities between USDA and the Department of         • the Hazard Analysis and Critical Control Point
    Homeland Security;                                      (HACCP) and Salmonella testing requirements for
  • USDA activities involving genetically engineered        the 32 countries we reviewed;
    animals and insects and the separation of
    genetically engineered crops in the food chain;       • the residue control programs for the 33 countries
    and                                                     already approved to export product to the United
  • USDA coordination with other Federal agencies           States; and
    in implementing the food security provisions of
    the Public Health Security and Bioterrorism           • Slovakia’s meat inspection program and New
    Preparedness and Response Act of 2002 (P.L.             Zealand’s alternative generic E. coli testing program
    107-188).                                               for bobby calves (veal).

  The findings and recommendations from these             Because FSIS had implemented the agreed-upon
  efforts will be covered in future semiannual reports    corrective actions for the 17 recommendations in our
  as the relevant audits and investigations are           June 2000 audit report, we made no additional
  completed.                                              recommendations. (Imported Meat and Poultry
                                                          Inspection Process Equivalence Determinations –
                                                          Phase III; Audit Report No. 24099-5-Hy)




                                                                                                                      5
Company Owner Sentenced for Poultry Adulteration

In January 2004, the owner of a southern California
food service management, storage, and distribution
business was sentenced to 1 year of supervised
probation and fined $10,000 after he pled guilty to
delivering adulterated turkey products to area schools.
The company, which supplied 47 school districts,
transported and distributed poultry products that had
been adulterated with rodent hair, rodent feces, and
gnawings by rodents to schools in the Bakersfield,
California, area in 1996 and 1997. The plant manager
had previously pled guilty to causing the adulteration of
poultry products and had agreed to testify against the
plant owner. The owner and his company are awaiting
                                                             The fighting dogs were kept in poor conditions. OIG photo.
trial for similar violations related to his northern
California warehouse.
                                                             • In New York, the owner and publisher of SDJ was
Former Utah APHIS Worker Sentenced for Brutal                  convicted in March 2004 on State charges of animal
Murder of Teenage Girl                                         cruelty, animal fighting, tampering with evidence, and
                                                               other charges.
In a followup from the second half of FY 2002, a former
APHIS employee was sentenced in January 2004 to life         • Another individual was indicted in March 2004 for the
in prison without the possibility of parole for the brutal     interstate distribution of animal fighting videotapes
murder and dismemberment of a teenage girl in June             and books.
2000 at an APHIS animal research facility in Utah. The
31-year-old former USDA employee was found guilty at         • Information obtained from the investigation has also
trial of aggravated capital murder, aggravated felony          led to the arrest or indictment of six individuals in
kidnapping, and desecration of a dead human body.              Pennsylvania on State charges of animal cruelty,
This investigation was conducted jointly with the Cache        animal fighting, and other charges. Five have pled
County, Utah, Sheriff’s Department.                            guilty, and one is awaiting trial.

Multi-State Dogfighting Case Yields Guilty Pleas             • During the execution of State and Federal search
                                                               warrants in 4 States, 96 dogs were seized, as well as
An ongoing investigation identified a loose-knit group of      truckloads of dogfighting books, videotapes, related
individuals in the Northeast who participated in and           equipment, and computers.
promoted illegal dogfighting. The case identified
dogfighters, dog breeders, and an owner and former           OIG worked with the Georgia Bureau of Investigation,
owner of an international underground dogfighting            New York State Police, Pennsylvania State Police, West
magazine, the Sporting Dog Journal (SDJ), in Georgia,        Virginia State Police, and State and Federal prosecutors
New York, Pennsylvania, West Virginia, and Virginia.         on this case.




6
ONGOING AND PLANNED REVIEWS FOR
PUBLIC HEALTH AND SAFETY

Public health and safety topics that will be covered
in ongoing or planned reviews include:

• poultry recalls due to a listeria outbreak in the
  Northeastern United States;
• implementation of HACCP in very small plants;
• followup to assess the implementation of
  recommendations made in our 2000 Food
  Safety Initiative;
• analysis of food safety information systems;
• the Department’s BSE surveillance program;
• APHIS’ implementation of the listed agents and
  toxins provisions of the Public Health Security
  and Bioterrorism Preparedness and Response
  Act of 2002 (P.L. 107-188);
• egg processing inspections; and
• emergency eradication and control programs.

The findings and recommendations from these
efforts will be covered in future semiannual reports
as the relevant audits and investigations are
completed.




                                                       7
Integrity of Benefits and
Entitlements Programs

OIG Strategic Goal Number Two:                               FEEDING PROGRAMS
Reduce program vulnerabilities
                                                            Because FNS programs have large dollar outlays
and enhance integrity in the                                (approximately $42 billion estimated for FY 2004), the
delivery of benefits to                                     potential exists for fraud and large dollar losses. In FY
                                                            2004, we are emphasizing audits of FNS programs,
individuals.                                                particularly FSP, to ensure that critical internal control
                                                            checks are in place to guarantee efficiency,
Benefit and entitlement programs in USDA include a          effectiveness, and economy. We are continuing to
variety of programs that provide payments directly and      monitor Electronic Benefits Transfer (EBT) systems as
indirectly to individuals or entities to feed at-risk       they are implemented.
populations, including the poor and mothers and
children, and support farmers and rural communities.        Food Stamp and EBT Fraud Investigations Reap
These programs involve tens of billions of dollars in       Significant Results
estimated outlays for FY 2004 and are susceptible to
misuse by organized groups (such as large-scale food        OIG investigations of Food Stamp Program fraud
stamp traffickers) and individuals.                         continued to result in substantial penalties for retail
                                                            store owners and their associates who illegally profit by
• The Food and Nutrition Service (FNS) administers          “discounting” food stamp benefits—returning a lesser
  the Federal domestic nutrition assistance programs,       amount of cash (typically 50 cents on the dollar) to
  including the Food Stamp Program (FSP), the Child         recipients in exchange for program benefits that are
  Nutrition Programs, and the Special Supplemental          supposed to be used only to purchase food. Nearly all
  Nutrition Program for Women, Infants, and Children        FSP benefits are now issued through Electronic
  (WIC).                                                    Benefits Transfer, which, in addition to saving
                                                            administrative program costs by eliminating costs of
• The Farm Service Agency (FSA) helps ensure the            printing, issuing, and reconciling millions of paper food
  well-being of U.S. agriculture through the                stamps every month, also provides indisputable
  administration of farm commodity programs; farm           assistance to investigators in the form of complete
  operating, ownership, and emergency loans;                electronic records of FSP transactions made by
  conservation and environmental programs;                  authorized retailers. EBT records can be used to target
  emergency and disaster assistance; domestic and           investigations by highlighting suspicious patterns of
  international food assistance; and international export   activity; they also provide evidence of food stamp fraud,
  credit programs.                                          conspiracy, and wire fraud in criminal proceedings. EBT
                                                            is a powerful tool for identifying and stopping large-scale
• The Risk Management Agency (RMA) provides                 traffickers and for identifying recipients who misuse their
  agricultural producers with the opportunity to achieve    benefits.
  financial stability through effective risk management
  tools, such as crop insurance.                            • Chicago, Illinois: Four individuals in Chicago have
                                                              been sentenced to serve from 15 to 57 months in
                                                              prison and ordered to pay $29.1 million in restitution
    For the first half of FY 2004, OIG issued 23 audit        for defrauding FSP from the fall of 1997 through
    reports relating to the integrity of benefits and         August 2001. The restitution is the largest ever
    entitlements programs. OIG’s investigations for           ordered in a single FSP EBT fraud case in the
    that key challenge during the first half of FY 2004       Chicago area. The subjects moved the authorized
    yielded 168 indictments, 98 convictions, and              point of sale device to different locations in Chicago
    $57.2 million in monetary results.                        so they could exchange cash for EBT benefits away
                                                              from the authorized store. Three pled guilty in
                                                              September 2003, and the fourth was convicted of all
                                                              counts during a jury trial in October 2003.




8
• Miami, Florida: In October 2003, the owner of a           New Mexico Generally Successful in EBT System
  small Miami convenience store was sentenced in            Implementation
  U.S. District Court to serve 60 months in Federal
  prison, ordered to pay nearly $4.5 million in             All 50 States and the District of Columbia now use EBT
  restitution to USDA, and fined $4,500 after he was        systems to deliver food stamp benefits. This semiannual
  convicted at trial on charges of conspiracy, illegal      period, we found that the EBT system in New Mexico
  redemption of food stamp coupons, and money               was successfully implemented but that weak controls
  laundering. An employee was also convicted at trial       allowed EBT service fees of more than $95,000 to be
  on conspiracy charges and was sentenced to serve          improperly charged to FSP for the New Mexico gross
  42 months in prison. From April 1996 through              receipts tax, and an error in account setup resulted in a
  February 1998, the store redeemed approximately           needed adjustment to the State Automated Application
  $3.3 million in illegally obtained food stamps. The       for Payments balance of more than $450,000. We also
  investigation also found that the storeowner              found that
  conspired with others from 1992 to 1998 and, for a
  commission, redeemed food stamps for unauthorized         • EBT benefits of more than $500,000 needed to be
  stores.                                                     removed from the processor’s authorization-pending
                                                              file, and
• Tampa, Florida: In November 2003, as a result of a
  joint investigation with Federal, State, and local law    • the State agency needed to develop adequate written
  enforcement authorities, the owner and three                policies and procedures for reviewing management
  employees of a community grocery store in Tampa             reports, performing reconciliations, resolving
  received sentences ranging from 12 to 55 months in          complaints, and ensuring authorized access.
  Federal prison after pleading guilty to Federal
  charges of EBT fraud. The defendants were ordered         The State agency and FNS generally concurred with our
  to pay a total of $2.6 million in restitution to USDA     recommendations. (State of New Mexico Continued
  and a $500,000 judgment order. From November              Monitoring of EBT System Development; Audit Report
  1998 to October 2002, the store redeemed more than        No. 27099-18-Te)
  $3 million in food stamp benefits. The storeowners
  were previously disqualified from the FSP and             Welfare Recipient Claims Benefits in Five States
  conspired with an employee to fraudulently obtain an      at Once
  authorization to accept food stamp benefits. In
  addition, seven Federal criminal complaints were          In December 2003, a U.S. District Court judge in
  filed against recipients who had traded as much as        Michigan sentenced a welfare recipient to 180 days of
  $19,500 in food stamp EBT benefits for cash. More         home confinement and 2 years of probation, and
  recently, 53 State arrest warrants were obtained for      ordered her to pay full restitution after she pled guilty to
  recipients who had discounted up to $5,000 in food        one count of unlawful acquisition of food stamp
  stamp benefits, and 115 cases naming other                coupons. The recipient fraudulently received over
  recipients have been referred to FNS for                  $91,000 from the food stamp and other welfare benefit
  administrative disqualification.                          programs simultaneously in five States (Arkansas,
                                                            Louisiana, Tennessee, Indiana, and Michigan) from
• Philadelphia, Pennsylvania: The owner of a                1994 through 1998.
  grocery store in Philadelphia, Pennsylvania, was
  spared incarceration due to his failing physical health   Georgia State Employee Sentenced to Federal
  and was sentenced in Federal court to 51 months of        Prison for Fraudulent Scheme Involving USDA
  electronic home confinement, followed by 3 years of       Assistance Program
  probation. He was ordered to pay more than
  $770,000 in restitution to USDA for his participation     A former Georgia Department of Family and Children
  in a $1.1 million food stamp trafficking and money-       Services employee was sentenced in December 2003
  laundering scheme.                                        to serve 15 months in Federal prison, followed by 3
                                                            years of supervised release, after pleading guilty to
                                                            conspiracy charges. The subject also was ordered to


                                                                                                                       9
pay approximately $15,000 in restitution. During the           providing a nutritious meal to every eligible student.
course of the OIG investigation, it was determined that,       We questioned $136,138 in National School Lunch
during a 7-month period in 1998, the subject conspired         Program reimbursements. In addition, the
with an associate to create fictitious recipient cases and     procurement of vended meal services restricted
received food stamp and Temporary Assistance to                competition, and the SFA did not maintain key
Needy Families benefits fraudulently. The subject’s            documents used in approving and awarding the bid.
accomplice also pled guilty to conspiracy charges and is       (Accountability and Oversight of the National School
awaiting sentencing.                                           Lunch Program; Audit Report No. 27010-16-Ch)

Control Weaknesses Cost National School Lunch                We recommended that FNS require the applicable State
Program Operations Money                                     agencies to institute claims against the SFAs as
                                                             necessary. State agencies should ensure that the SFAs
During this reporting period, we evaluated 10 School         establish controls and implement adequate meal
Food Authorities’ (SFA) internal controls related to meal    counting and claiming systems, review those systems
accountability, procurement, and accounting systems in       for accuracy, provide SFAs with procurement training,
4 States. The SFAs did not always follow meal                and ensure the SFAs adhere to Federal or State
accountability procedures, including proper use of edit      procurement requirements. The State agencies and
checks to ensure the accuracy of the daily meal counts       FNS concurred with our findings and recommendations,
and claims for reimbursement, and procurement                and are implementing the recommendations.
procedures did not always comply with Federal or State
requirements. As a result of such issues:                    Wisconsin Daycare Sponsor Convicted of Theft

• Kansas and Missouri: We identified overclaims of           A Wisconsin daycare provider and Child and Adult Care
  $2,850 and underclaims of $142,450. In addition,           Food Program (CACFP) sponsor was found guilty of
  schools did not perform cost analyses to determine         defrauding CACFP of approximately $85,000 and
  the cost-effectiveness of individual vendors,              defrauding a La Crosse, Wisconsin, bank of more than
  purchasing cooperatives, and Food Service                  $150,000. From January 1996 through October 1998,
  Management Companies (FSMC). Some SFAs did                 the sponsor obligated CACFP funds to the bank as
  not adequately monitor FSMC billings and contract          collateral for a line-of-credit loan by representing those
  terms, and purchasing cooperatives did not specify         funds as receivables owed to her by the Wisconsin
  that they would maximize competition. (Audit Report        Department of Public Instruction. In fact, those monies
  Nos. 27010-14-KC, 27010-15-KC, 27010-16-KC,                were intended to go directly to daycare providers under
  27010-17-KC, 27010-19-KC, 27010-20-KC, and                 her sponsorship. This allowed the sponsor to use the
  27010-21-KC)                                               CACFP funds for purposes not allowed under program
                                                             regulations. In December 2003, the sponsor was
• Texas: SFA officials did not competitively bid a           sentenced to 6 months of incarceration and 10 years of
  contract with an FSMC to provide food services, and        probation, and was ordered to pay restitution of
  they accepted the contract and subsequent renewals         $212,870.
  as fixed-cost contracts, resulting in about $18,300 in
  ineligible management fees. The SFA also could not         Director of Louisiana Nonprofit Organization
  ensure the accuracy and eligibility of meals claimed       Sent to Prison
  for reimbursement. (Accountability and Oversight of
  the National School Lunch Program – Star Programs,         In December 2003, the executive director of a Louisiana
  Inc., Ingram, Texas; Audit Report No. 27010-9-Te)          nonprofit organization was sentenced to serve a year
                                                             and a day in Federal prison and ordered to pay
• Illinois: An SFA improperly claimed more than              $249,000 in restitution. From July 2000 to May 2001,
  71,000 meals during school years 2002 and 2003.            the director inflated meal count records submitted to the
  Applications were not maintained to support every          Louisiana Department of Education in connection with
  meal claimed as free or reduced price, and the meal-       CACFP. The inflated meal counts resulted in ineligible
  counting systems did not yield accurate totals. The        reimbursements of more than $80,000. The director
  SFA’s milk purchases were inconsistent with                also was involved in bank fraud violations and violations


10
of laws pertaining to the U.S. Department of Health and          ONGOING AND PLANNED REVIEWS FOR
Human Services.                                                  FEEDING PROGRAMS
Retailer Forfeits More Than $166,000 in Cash and                 Feeding program topics that will be covered in
Vehicle for WIC Fraud                                            ongoing or planned OIG reviews include:
The owner of a Georgia retail establishment was                  • vendor sanction policies for FNS programs;
sentenced to 60 months of probation and ordered to pay           • a review of the special wage incentive program
$434,032 in restitution for WIC trafficking. The owner             under the Nutrition Assistance Program in
also forfeited $166,092 in cash and a 1999 Lincoln                 Puerto Rico;
Navigator in January 2004 as part of his plea                    • controls over USDA-donated commodities;
arrangement. From March 1996 through April 2001, an              • effectiveness of FNS Compliance Branch
accomplice purchased WIC vouchers on the street for                operations;
cash and sold them to the retailer at a discount. The            • New York City FSP casefile documentation;
retailer redeemed the illegally trafficked vouchers for full     • the Summer Food Service Program;
face value and paid the co-conspirator a percentage.             • WIC Program eligibility;
The U.S. Attorney’s office for the Northern District of          • WIC vendor monitoring;
Georgia has appealed the probation sentence.                     • analyses of EBT databases;
                                                                 • reauthorization of FSP retailers; and
Phoenix EBT Retailer Convicted in WIC Conspiracy                 • implementation of tiering requirements for
Scheme                                                             CACFP.
In February 2004, a Federal jury found a Phoenix,                The findings and recommendations from these
Arizona, storeowner guilty of trafficking in WIC benefits.       efforts will be covered in future semiannual reports
Our investigation showed that the storeowner had                 as the relevant audits and investigations are
trafficked in both food stamp and WIC benefits, and that         completed.
from about June 2002 through September 2003, the
storeowner fraudulently redeemed more than $1.3
million in WIC benefits. One of the individuals who
committed WIC fraud at this store was a Maricopa
County, Arizona, employee who created more than 80
fictitious families, each with multiple fictitious births, and
generated WIC instruments valued at more than
$83,000 for those families. This employee and three
undocumented aliens assumed the identities of the
fictitious persons, negotiated many of the instruments
for baby formula, and sold the baby formula to the
above-mentioned Phoenix storeowner for half price. The
storeowner also negotiated some of these fraudulent
WIC instruments for cash. The Maricopa County
employee pled guilty and is currently serving a Federal
prison term of 15 months. Two of the undocumented
aliens also pled guilty. Sentences for the storeowner
and the two undocumented aliens are pending. The
third undocumented alien is a fugitive.




                                                                                                                        11
 FARM PROGRAMS                                                Misrepresentation of Land Ownership Nets
                                                              Louisiana Producers Excess Payments of Almost
OIG’s farm programs work encompasses a variety of             $1 Million
farm commodity, farm credit, and conservation
programs administered by the Farm Service Agency.             Prompted by a request from the Louisiana State office,
The programs are funded primarily through the                 we found that a current FSA county committee
Commodity Credit Corporation (CCC), a Government              chairperson used his preexisting power of attorney for a
entity for which FSA provides operating personnel.            relative to continue to sign up and qualify for program
                                                              benefits even though the relative had passed away and
Since the new Farm Bill—the Farm Security and Rural           the heirs of the relative’s estate had sold the land in
Investment Act of 2002 (the 2002 FSRIA)—was                   1993. Another Louisiana producer received improper
enacted in May 2002, market conditions have improved,         farm program benefits for crop acreage bases on land
and the only major disaster assistance authorized is the      that the producer had sold and, therefore, in which he
$3.1 billion provided in the Agricultural Assistance Act of   had no interest. However, a county office employee,
2003. The 2002 FSRIA mandated substantial changes             who became aware of the sale, allowed the producer,
in farm program and conservation payments; we have            nonetheless, to receive program payments on the land.
been monitoring the effects of those changes. Total           For these two cases, producers received improper farm
FSA outlays are projected to be about $16.2 billion in        program benefits, totaling more than $918,300, under
2004 and $16.3 billion in 2005. FSA’s 2004 budgeted           the Production Flexibility Contract program and DCP
program level is more than 24 percent of the                  from 1997 through 2003. FSA generally concurred with
Department’s total.                                           the audit recommendations to recover the improper
                                                              program benefits and to take administrative actions
Direct and Counter-Cyclical Program Base Acres                against the two county office employees. (Farm Service
and Payment Yields Must Be Properly Established               Agency Farm Programs Audit; Audit Report No. 03601-
                                                              42-Te)
The Farm Service Agency is responsible for
implementing the provisions of the Farm Security and          North Carolina Producer Agrees To Repay
Rural Investment Act of 2002 (Farm Bill) that provide for     FSA $2.7 Million
direct payments, counter-cyclical payments, marketing
assistance loans, and loan deficiency payments on             In October 2003, a producer in eastern North Carolina
selected agricultural commodities. Overall, FSA had           signed a civil settlement agreement and consent order
controls to reasonably ensure the loan and payment            agreeing to repay FSA $2.7 million plus interest. The
rates were properly implemented and administered for          farmer admitted to removing and selling 373,064
those programs.                                               bushels of soybeans held by the Commodity Credit
                                                              Corporation as collateral for two loans totaling $2 million
Our nationwide survey of the newly implemented Direct         and converting the proceeds to his own personal use.
and Counter-Cyclical Program (DCP) for the 2002 and
2003 program signup disclosed that FSA generally had          Farm Manager Sentenced in FSA Conspiracy
implemented DCP in compliance with the Farm Bill and
FSA procedures. However, we did identify a number of          In October 2003, a California farm manager of a Texas-
issues that will require our further review, including the    based landlord was sentenced to serve 7 months in a
apparent disparate default base and yield options             Federal facility, followed by 36 months of supervised
available to producers in different States, proper            release, and was ordered to pay restitution of $396,638
documentation of producers’ certified eligibility before      to USDA after he pled guilty to submitting false claims.
issuing payments, the establishment of assigned yields,       Our investigation disclosed that the manager conspired
and the county offices’ verification of land ownership.       with three tenant farmers from 1999 to 2001 to defraud
Additional work planned for FY 2004 includes an audit         FSA of approximately $400,000 from the Production
of DCP base acres and payment yields to address the           Flexibility Contract and Market Loss Assistance
questions raised. (Closeout memorandum; Audit                 programs. The farm manager had the tenants sign
Assignment No. 03099-51-KC)                                   bogus lease agreements for land they did not plant or
                                                              farm. The tenants then applied for farm subsidy


12
payments, claiming they had planted rice and oilseeds        RISK MANAGEMENT AGENCY AND
on the land. Upon receipt of the subsidy payments from       CROP INSURANCE
FSA, the tenants kept approximately $40,000 and
issued checks to the manager for the remainder. In          RMA administers the Federal Crop Insurance
addition, the landlord agreed to pay approximately          Corporation (FCIC); its 2003 crop-year liability
$400,000 as part of a civil settlement that was agreed to   exceeded $40 billion. FCIC is a wholly owned
in March 2004.                                              Government corporation that offers subsidized multiple-
                                                            peril and revenue crop insurance through a private
                                                            delivery system by means of insurance companies. Its
 ONGOING AND PLANNED REVIEWS FOR                            2003 crop-year premium subsidy and crop indemnity
 FARM PROGRAMS                                              payments were $2 billion and $3 billion, respectively.
                                                            Producer-paid premiums were about $1.4 billion.
  Farm program topics that will be covered in
  ongoing or planned OIG reviews include:
                                                            Monitoring of RMA Efforts To Renegotiate the
                                                            Standard Reinsurance Agreement
  • DCP base acres and payment yields;
  • FSA’s implementation of the Cattle Feed
                                                            The Standard Reinsurance Agreement (SRA) is
    Program;
                                                            considered a cooperative financial assistance
  • FSA’s implementation of the Livestock
                                                            agreement between FCIC and the insurance company
    Compensation Program;
                                                            named on the agreement. Starting in October 2003, in
  • FSA’s implementation of the Milk Income Loss
                                                            anticipation of RMA’s decision to renegotiate the SRA
    Contract Program; and
                                                            for Federal crop insurance, we began to monitor RMA’s
  • FSA’s application of its finality rule and equitable
                                                            actions in this area. We have provided RMA officials our
    relief provisions as they apply to identifying any
                                                            perspective on their draft SRA and the draft Quality
    improper payments.
                                                            Control Appendix, reviewed portions of a model used by
                                                            RMA to simulate the loss experience that would have
  The findings and recommendations from these
                                                            been realized under various types of SRA
  efforts will be covered in future semiannual reports
                                                            arrangements, discussed recommendations contained
  as the relevant audits and investigations are
                                                            in prior audit reports, and provided RMA officials
  completed.
                                                            feedback from our preliminary analysis. RMA has
                                                            indicated that it intends to achieve a cost savings of
                                                            about $68 million per year through a 25-percent cession
                                                            of net underwriting gains and losses from each
                                                            approved crop insurance provider. Our monitoring of the
                                                            renegotiation process continues. (Ongoing audit; Audit
                                                            Assignment No. 05099-109-KC)

                                                            RMA Managers Need To Better Oversee Written
                                                            Agreements

                                                            RMA provides crop insurance coverage either through
                                                            standard policies or through written agreements, which
                                                            provide some flexibility by allowing RMA regions to
                                                            insure crops in areas where coverage is unavailable by
                                                            modifying existing policies for insured acres. Our review
                                                            disclosed that in crop year 2001, personnel at the RMA
                                                            Regional Offices issued written agreements without
                                                            ensuring that the documentation required by RMA to
                                                            support actuarial changes was provided. As a result, we
                                                            projected that RMA accrued an additional $138.7 million
                                                            in liability and $7.6 million in subsidized premiums. In


                                                                                                                  13
addition, we found that RMA officials were unable to         Improper Indemnity Payments Made To Prune
accurately and effectively track accepted written            Producer, Partner
agreements, which could, and did, allow insurance
providers to misidentify units or terms and resulted in an   Our audit disclosed that a California prune producer and
excessive indemnity paid.                                    one of its two partners received unentitled federally
                                                             insured crop indemnity payments. The prune producer
We recommended that RMA National Office officials            underreported acreage (1997 and 1998) when applying
provide oversight of Regional Office activities related to   for insurance and underreported crop production (1997
written agreements, and that they develop a review form      through 1999) when submitting loss claims. The prune
for required documentation. We also recommended that         producer’s insurance provider did not follow procedures
RMA establish procedures to ensure that insurance            when it failed to verify claimed losses by collecting final
providers properly enter into the data acceptance            settlement sheets from packinghouses where the prune
system those units insured under written agreements          producer sold its fruit. The improper payments resulted
and correctly apply the terms of the written agreements      from inaccurate information submitted by the prune
to the applicable units. RMA agreed to issue a review        producer and its partner to support insurance claims
form and guidance promptly. (Review of Written               filed with two separate insurance providers. Because of
Agreements; Audit Report No. 05601-11-Te)                    negligent servicing, the two insurance providers did not
                                                             detect the misrepresentations and improperly paid the
Crop Price Elections Adequately Supported,                   prune producer and its partner $386,772 in indemnities
Reasonable, Consistent                                       for crop losses from 1997 through 1999.

RMA establishes commodity price elections with               RMA concurred with all the recommendations to pursue
information from the World Agricultural Outlook Board        recovery of the questioned amounts except for one—
(WAOB) and other USDA agencies to provide the basis          that mandatory claims reviews be performed in cases
for the various program price options available to           where an arbitration settlement caused an indemnity
producers who purchase all types of crop insurance.          payment to exceed the $100,000 threshold. RMA
Our review disclosed that RMA procedures and controls        explained that these reviews are based on a unit basis
resulted in reasonable and supportable crop price            and even after the arbitration none of the individual units
elections for the 2001 through 2002 crop years. RMA          exceeded the $100,000 threshold. OIG’s position is that
had been generally complying with a prior U.S. General       mandatory claims reviews should not be conducted on a
Accounting Office (GAO) report that recommended              “per unit basis.” Rather, they should be conducted on a
RMA use the crop price information from WAOB and             producer’s entire operation to avoid improper payments
other USDA agencies. The methodology and process             such as those that occurred for this producer.
RMA used to prepare the price memoranda submitted            (Indemnity Payments to Prune Producers in California –
to OMB were sound, and we were able to verify the            Producer D; Audit Report No. 05099-7-SF)
supporting documentation for the price guarantees and/
or price selections for a variety of agricultural crops.     Minnesota Elevator Manager and Four Farmers
                                                             Convicted in $1.2 Million Conspiracy
The reinsured companies use the data supplied by RMA
to inform the producers of the established price             After a 7-day trial, a Minnesota elevator manager was
guarantees and/or price selections for each type of crop     found guilty of conspiring to defraud USDA and making
for each applicable crop year. We assessed the internal      false statements that enabled farmers to receive
controls for one reinsured company’s computer systems        approximately $1.2 million to which they were
and noted that they caught all data errors submitted for     unentitled. The scheme involved the misgrading of
the tests and showed them on error listings as intended.     durum wheat, from October 1999 through April 2000, by
(Risk Management Agency Establishment of Maximum             inflating the damage so that the farmers would receive a
Prices; Audit Report No. 05099-17-KC)                        quality adjustment on their crops. This action reduced
                                                             their reported production by 80 percent and qualified




14
them for disaster payments from FSA and insurance          ONGOING AND PLANNED REVIEWS FOR
indemnities from RMA. Before the trial began, four         RMA AND CROP INSURANCE
farmers charged in the scheme entered guilty pleas to
mail fraud and making false writings. The elevator         RMA and crop insurance topics that will be
manager was sentenced to serve 46 months in prison         covered in ongoing or planned reviews include:
and ordered to pay restitution of $751,758. The four
farmers who pled guilty were placed on probation and       • the effectiveness of RMA’s data acceptance
ordered to pay a combined $32,834 in restitution.            system;
                                                           • the effectiveness of RMA’s compliance activities
Federal Jury Finds West Texas Crop Insurance                 and oversight in preventing and detecting
Agent Guilty of Making False Statements to RMA               program abuse;
                                                           • a review to evaluate and validate the zero
A producer, who was also a crop insurance agent,             acreage data for insured crops submitted to
provided false planting information about his 1999           RMA by the reinsured companies in contrast to
crop-year wheat, cotton, and sorghum with the false          acreage reports submitted by producers to FSA;
claims resulting in an overall loss to the Government of   • continued monitoring of and commenting on
more than $640,000. A Federal jury found him guilty in       RMA’s renegotiation of the SRA; and
February 2004 after a 2-week trial. A crop insurance       • as a followup to our ongoing review of RMA’s
adjuster previously had pled guilty to making false          data acceptance system, a more intensive
claims in this matter. The adjuster attested to crop         review verifying and validating the policyholders’
appraisals knowing he had not conducted them on the          data submitted by the reinsured companies.
insurance agent’s 1999 crops. Sentencing is pending for
both the insurance agent and adjuster.                     The findings and recommendations from these
                                                           efforts will be covered in future semiannual reports
                                                           as the relevant audits and investigations are
                                                           completed.




                                                                                                                  15
Management of Public Resources


OIG Strategic Goal Number                                      FINANCIAL MANAGEMENT AND
                                                               ACCOUNTABILITY
Three: Increase the efficiency
and effectiveness with which                                  The Department and the standalone agencies required
                                                              to prepare their own financial statements received, for
USDA manages and employs                                      the second consecutive year, unqualified opinions. This
public assets and resources,                                  extraordinary achievement once again reflected the
                                                              overall improvements made in financial management.
including physical and                                        Errors were disclosed, however, in the FS FY 2002
information resources.                                        financial statements subsequent to issuance, thus
                                                              necessitating a restatement. Because of the materiality
USDA program assets of more than $118 billion                 of the errors corrected, the Department’s FY 2002
comprise loans receivable, cash, property, plant,             financial statements also had to be restated.
equipment, and other assets. In addition, the Forest
Service (FS) is responsible for the stewardship of 192        Significant challenges lie ahead in FY 2004 for the
million acres of national forests and grasslands. USDA        issuance of the statements, because of the accelerated
also employs thousands of personnel who inspect or            timeframes required by law. As in past years, the FS FY
grade agricultural products and operations. The               2003 financial statements required extensive
effectiveness and efficiency with which USDA manages          adjustments, long after the end of the fiscal year, before
its assets are critical.                                      they could be considered to be fairly presented. A timely
                                                              and unqualified opinion on the FY 2004 financial
To effectively manage the funds and goods which it            statements will be attainable only if the FS implements
holds in trust for the American people, USDA must have        sustainable financial management systems. (Audit
effective financial management and information                Report Nos. 50401-51-FM, 06401-16-FM, 08401-3-FM,
technology. Two key players in this are:                      05401-12-FM, 85401-9-FM, and 15401-4-FM)

• the National Finance Center (NFC), which develops           USDA Consolidated—Unqualified Opinion
  and/or operates administrative and financial systems,
  processing about $67 billion in disbursements in FY         Our report on Internal Control Over Financial Reporting
  2003; and                                                   in the Department’s consolidated financial statements
                                                              disclosed that continued improvements are needed in
• the National Information Technology Center (NITC),          financial management at the corporate level, including
  which is the Department’s primary mainframe                 quality control, and continued improvements are needed
  processing facility and processes the data of FSA/          in information technology (IT) security. In our Report on
  CCC, RMA, FNS, the National Agricultural Statistics         Compliance with Laws and Regulations, we continued
  Service, APHIS, and the FS.                                 to note where further actions are necessary to improve
                                                              financial management systems and the reporting of
                                                              material IT security weaknesses. We also noted a
     For the first half of FY 2004, OIG issued 16 audit       potential Anti-Deficiency Act violation where APHIS
     reports relating to the management of resources,         issued a purchase order for more than $950,000 for
     including information technology. OIG’s                  computers for the Grain Inspection, Packers and
     investigations for that key challenge during the first   Stockyards Administration (GIPSA) at yearend; it was
     half of FY 2004 yielded 48 indictments, 24               subsequently found that GIPSA did not have the funds
     convictions, and $2 million in monetary results.         available to fund the acquisition.

                                                              The Office of the Chief Financial Officer (OCFO) has
                                                              immediate and long-term plans to substantially address
                                                              all of the weaknesses in its financial management
                                                              systems. Our recommendations in this report were
                                                              directed toward the need to implement further
                                                              improvements in quality control in order to enhance the


16
reporting and tracking of weaknesses within financial        Federal Information Resources). Rural Development
management and information technology. OCFO                  officials generally agreed with our findings and
generally agreed with our findings and                       recommendation that RD establish procedures to
recommendations.                                             reconcile and age the suspense accounts at a detailed
                                                             transaction level and on time.
Forest Service Internal Controls: The FS contracts
with an independent accounting firm to perform the           RMA/FCIC Information Systems Controls: OIG
annual financial statement audit; OIG serves as the          contracts, under a reimbursable agreement with the
Contracting Officer’s Technical Representative (COTR).       agency, with an independent accounting firm to perform
The firm’s report on Internal Controls Over Financial        the annual financial statement audit. OIG serves as the
Reporting for the FS noted the following reportable          COTR. The firm’s report on RMA/FCIC disclosed that
conditions:                                                  controls over access to its information systems needed
                                                             improvement, as did its application program and system
• FS needs to improve its financial management and           software change controls. The firm recommended that
  accountability, general controls environment,              RMA/FCIC implement corrective actions to strengthen
  reconciliation and management of fund balance with         the cited control weaknesses. With more than $4 billion
  Treasury, and compilation of required supplementary        in indemnities and $1.4 billion in premium revenue,
  information and required supplementary stewardship         these systems are highly critical. RMA/FCIC officials
  information; and strengthen its accrual methodology.       generally agreed with the findings and
                                                             recommendations in the report.
• Controls over several areas need improvement—
  various accounting feeder systems, the accurate            FSA/CCC Material Internal Controls Weaknesses:
  recording of personal property transactions, physical      FSA contracts with an independent accounting firm to
  inventories of capitalized assets, and FS IT               perform the financial statement audit; OIG serves as the
  application systems.                                       COTR. The independent firm’s report on FSA/CCC
                                                             disclosed material internal control weaknesses in
• Posting of certain transactions need proper reference      information security controls, financial system
  data.                                                      functionality, monitoring and controlling budgetary
                                                             resources at the transaction level, financial accounting
The firm recommended that FS, to address the                 and reporting policies and procedures, and procedures
weaknesses in controls over financial reporting, train       for the budget execution process. Instances of
personnel, implement new procedures and/or improve           noncompliance with the Federal Information Security
existing procedures, increase management review and          Management Act of 2002 (FISMA), the Debt Collection
monitor procedures for compliance, review and revise         Improvement Act of 1996 (DCIA), and the Federal
business processes and general ledger posting models,        Financial Management Improvement Act of 1996
perform certifications of financial systems, and make        (FFMIA) included issues relating to the information
system enhancements. The agency’s response is still          security program, timeliness in referring delinquent non-
pending.                                                     tax debts for collection, and financial management
                                                             systems, respectively. The firm recommended that CCC
Rural Development’s IT and Compliance                        improve its controls related to information security,
Weaknesses: RD’s ineffective oversight and                   implement additional financial system improvements,
management of its IT resources had unnecessarily             improve funds control processes, and improve policies
exposed its $56 billion loan portfolio data to the risk of   and procedures over financial accounting and reporting
disclosure, modification, or deletion. In addition, RD was   as well as budget execution. FSA/CCC generally
not properly reconciling its suspense/deposit series of      agreed with the recommendations and has developed
Treasury Symbols to its general ledger. We noted that        corrective action plans.
RD’s RUS legacy systems were not in compliance with
Office of Management and Budget (OMB) Circular A-            Rural Telephone Bank’s (RTB) IT and Compliance
127 (Financial Management Systems) and not all               Weaknesses: OIG contracts, under a reimbursable
financial management systems have been certified in          agreement with the agency, with an independent
accordance with OMB Circular A-130 (Management of            accounting firm to perform the annual financial


                                                                                                                   17
statement audit. OIG serves as the COTR. The firm’s          INFORMATION TECHNOLOGY (IT)
report on RTB disclosed that a material internal control     SECURITY AND IT MANAGEMENT
weakness was found in that improvements were needed
in IT security controls. The compliance report found that   USDA depends on IT to efficiently and effectively deliver
RTB’s legacy financial management system is not in          its programs and provide meaningful and reliable
substantial compliance with OMB Circular A-127 and          financial reporting. One of the more significant dangers
not all financial management systems have been              USDA faces is a cyberattack on its IT infrastructure,
certified in accordance with OMB Circular A-130. RTB is     whether by terrorists seeking to destroy unique
working to correct these weaknesses.                        databases or criminals seeking economic gains. The
                                                            Department and most of its agencies have taken
 ONGOING AND PLANNED REVIEWS FOR                            numerous actions in the past few years to improve
 FINANCIAL MANAGEMENT AND                                   security over their IT resources; however, additional
 ACCOUNTABILITY                                             actions are still needed. Most critical is management
                                                            commitment and accountability for implementing the
     Financial management and accountability topics         requirements of OMB Circular A-130 and other federally
     that will be covered in ongoing or planned OIG         mandated security guidelines.
     reviews include:
                                                            The Department Is Improving Its IT Security, but
     • annual audits of the Department and standalone       Further Actions Are Needed
       agencies’ financial statements for FY 2004, and
     • the Department’s implementation of the               During this reporting period, we assessed the adequacy
       Improper Payments Act.                               of IT security at RD; APHIS; the Economic Research
                                                            Service; the Grain Inspection, Packers and Stockyards
     The findings and recommendations from these            Administration; the Office of Budget and Program
     efforts will be covered in future semiannual reports   Analysis; and the Office of the Chief Economist. Our
     as the relevant audits and investigations are          audits established trends Department-wide in that some
     completed.                                             weaknesses were disclosed at every agency we
                                                            reviewed.

                                                            • Many of the agencies still did not comply with the
                                                              requirement of OMB Circular A-130 to prepare all
                                                              required security plans, conduct risk assessments,
                                                              prepare disaster recovery plans, provide security
                                                              awareness training to all employees, and perform
                                                              system certification and accreditations.

                                                            • We found physical and logical access control
                                                              weaknesses in every agency we reviewed, hindering
                                                              agencies’ abilities to adequately protect their critical
                                                              IT resources. Most agencies we reviewed did not
                                                              have adequate controls in place to timely identify and
                                                              correct potential system vulnerabilities that could
                                                              compromise the confidentiality, integrity, and
                                                              availability of critical IT systems and data.

                                                            • Not all agencies had adequate controls in place to
                                                              properly manage and test changes to their
                                                              applications, leaving those applications vulnerable to
                                                              unauthorized and potentially malicious changes.




18
Of particular concern were the problems we noted at              • ensure that system software changes are sufficiently
RD. Since 1988, RD has a history of unsatisfactorily               tested and security impacts associated with these
correcting the IT-related weaknesses identified in our             changes to system software are adequately
audit reports. RD has not instituted a framework for               addressed during the system software change
proactively managing the information security risks                control process.
associated with its operations by addressing the
underlying causes of its poor information security.              NFC agreed with all of the findings and
Instead, RD has reacted to individual findings as they           recommendations and was very responsive to the audit
were reported, with little attention to the systemic             report. The Center took significant actions before the
ongoing control weaknesses. (Audit report Nos. 85099-            final report to correct identified weaknesses. (FY 2003,
4-FM, 33099-4-Ch, 14099-1-Te, 30099-1-SF, 39099-1-               NFC, Review of Internal Controls; Audit Report No.
At, and 12099-1-At)                                              11401-15-FM)

NFC’s Administrative and Financial Systems                       Improvements in IT Security at NITC, but Some
Internal Controls Require Strengthening                          Weaknesses Continue

Our audit identified internal control weaknesses in              Our review of NITC disclosed that it continued to take
NFC’s administrative and financial systems that could            actions toward complying with federally mandated
jeopardize the confidentiality, integrity, and availability of   security requirements but the necessary corrective
the data it processes.                                           actions are long-term in nature and continued actions
                                                                 are needed. We found that NITC needs to prepare
• NFC did not always protect information from                    security and contingency plans for its general non-
  improper access on its mainframe and network                   mainframe support systems and complete the system
  systems;                                                       certification and accreditation process for its critical
                                                                 systems. We also noted instances where NITC had not
• NFC had not fully complied with the security                   removed separated employees’ remote access
  management requirements included in the Federal                accounts, completed documentation of users with
  Information Security Management Act of 2002                    special access privileges, completed review and
  (FISMA); and                                                   documentation of security software parameters,
                                                                 implemented polices and procedures outlining
• NFC had not always adequately tested system                    monitoring of security logs, or completed its
  software changes or evaluated the security impact              implementation of secure Internet access. Finally, we
  resulting from system software changes and                     continued to find that approval, testing, and
  established adequate controls over the configuration           implementation documentation for NITC’s system
  of its mainframe operating system.                             change management process was not always
                                                                 maintained.
We recommended that NFC
                                                                 Because NITC was in the process of implementing
• establish and/or improve current procedures and                significant actions to correct the previous weaknesses
  guidance to prevent and detect unauthorized access             we identified, we did not make additional
  to sensitive data and resources on its systems;                recommendations on outstanding issues. However,
                                                                 based on our recent disclosures, we made a new
• finalize security plans and underlying risk                    recommendation to periodically reconcile NITC user
  assessments for its general support systems and                identifications to current employees and contractors to
  major applications and complete revisions to its               ensure timely removal of unneeded accounts. (NITC,
  certification and accreditation program to ensure that         General Controls Review – FY 2003; Audit Report No.
  both application and general support systems are               88099-5-FM)
  certified; and




                                                                                                                       19
FS Employee Imprisoned for Possession of Child               SPECIAL RESOURCE CHALLENGES FACING
Pornography                                                  THE FOREST SERVICE (FS)

In November 2003, a former FS employee in Arkansas          The Forest Service is the largest USDA agency. The
was sentenced to serve 30 months in Federal prison,         stewardship of 192 million acres of national forests and
followed by 3 years of supervised release, after            grasslands is its responsibility.
pleading guilty to possession of child pornography. The
FS employee had reviewed, scanned, and saved child          FS Needs To Take Further Actions To Acquire
pornography from diskettes in his possession onto his       Suitable Aircraft In the Most Cost-Efficient Manner
Government computer while he was supervising                Possible
troubled male youth at a Job Corps center. The
employee was separated from Government service.             The FS has an urgent need to replace its current fleet of
This case was worked jointly with FS’ Law Enforcement       lead planes, used to direct air tankers during firefighting
and Investigations organization.                            operations, supervise fire operations from the air, and
                                                            provide logistical and tactical support for firefighters on
Utah Nonprofit Employee Sentenced for Possession            the ground. While the FS had followed acquisition
of Child Pornography                                        regulations, we determined that the FS planned
                                                            acquisition of 20 aircraft on long-term lease at an
In Utah, an employee of a nonprofit organization,           estimated cost of $113 million needed improvement.
working at a Natural Resources Conservation Service
(NRCS) field office, was sentenced in January 2004 to       The FS could save an estimated $42.5 million over the
21 months in prison after pleading guilty to possession     term of the lease by contracting airplanes seasonally.
of child pornography. Forensic examination of the           The FS plan to lease the aircraft for the full year on a
computers by OIG’s Computer Forensic Unit found that        10-year contract is unnecessary and inefficient because
the nonprofit employee used an NRCS Government              the FS has only minimal use for its lead plane fleet
computer and his personal computer to access sexually       during the non-fire season. We also questioned the
explicit materials, including child pornography.            need to retain the lead plane pilots as governmental
                                                            employees instead of using seasonally contracted pilots
 ONGOING AND PLANNED REVIEWS FOR IT                         (though FS’ legal ability to contract for the positions is
 SECURITY AND IT MANAGEMENT                                 uncertain).

     IT security and IT management topics that will be
     covered in ongoing or planned reviews include:

     • the adequacy of application controls (methods
       and measures that ensure that individual
       programs process data as intended);
     • the adequacy of IT security at several additional
       agencies;
     • telecommunications controls in the Department;
     • mandated audits of the Department’s adherence
       to FISMA; and
     • annual assessment of general controls at NFC
       and NITC.

     The findings and recommendations from these
     efforts will be covered in future semiannual reports
     as the relevant audits and investigations are
     completed.
                                                            A Beachcraft 58P Baron aircraft that the FS currently uses as a lead
                                                            plane, guiding an air tanker. FS photo.


20
The FS draft solicitation for aircraft did not adequately     FS Employee Sentenced for Misuse of Purchase
describe the abnormally rigorous conditions under             Card and Convenience Checks
which the aircraft would be flown or the increased
maintenance and inspections that would be required            In December 2003, a former FS employee was placed
under the contract. Further, it did not identify the FS       on 5 years of probation, including 6 months of home
plans for competitive flight-testing or the selection         detention, and was ordered to pay $35,600 in restitution
process. This could lead to contractors not offering the      after pleading guilty to submitting false claims. An audit
most appropriate aircraft or a challenge or protest to the    conducted by the FS disclosed evidence that the
contract award, potentially delaying the acquisition of       employee misused the office purchase card and
new aircraft and impairing FS’ ability to combat wildfires.   convenience checks. The employee was the regional
While the FS had notified OMB of its plan for procuring       coordinator for those items and was responsible for
the new lead planes, it had not prepared the required         providing guidance and training to the regional
formal analysis, thus risking not having funds available.     employees regarding their proper use, as well as
                                                              auditing the accounts of those employees. The internal
The Forest Service agreed with our findings and               audit disclosed recent purchases of such items as a
recommendations to address the cited issues of cost-          refrigerator, washer, dryer, sofa, loveseat, coffee table,
effectiveness, contracting pilots, expanding its draft        and end tables, all of which were delivered to the
solicitation, explaining its plans for test flights and the   employee’s residence. In September 2002, we executed
selection process, and providing documentation to             a search warrant at the employee’s residence and
OMB. It has already taken corrective action on a              seized these items. The employee admitted misusing
number of them, for example, amending its draft               the purchase card and convenience checks in order to
solicitation. The Forest Service is in the process of         obtain those items, and she resigned. We subsequently
evaluating the cost savings to the Government if it           determined that, in 2001 and 2002, she illegally used
contracts out for both lead planes and pilots only when       the procurement process in order to obtain more than
needed and is providing OMB the documentation it              $35,000 in goods and services for personal use.
requires for the lead plane acquisition. (FS Procurement
of Firefighting Lead Planes; Audit Report No. 08601-37-       Procurement Employee Pleads Guilty to Accepting
SF)                                                           Gratuities

Two Arizona FS Firefighters Convicted for                     The president of a large office supply company paid
Transporting Marijuana                                        illegal gratuities to a number of Federal employees at
                                                              various agencies, including two USDA purchasing
In January 2003, two Forest Service firefighters in           agents employed by the Office of Procurement and
Nogales, Arizona, while officially employed, conspired to     Property Management and the FS. The company also
distribute and transport more than 150 pounds of              improperly charged items that were not ordered by the
marijuana. Both pled guilty and were sentenced in             Government to various Government purchase card
February 2004. One firefighter, who actually transported      accounts. The president of the company entered a guilty
the marijuana, was sentenced to Federal prison for 15         plea to one count of paying an illegal gratuity and was
months, followed by 3 years of supervised release. The        sentenced in September 2003 to 2 years of probation
other firefighter, who acted as a lookout, was placed on      with 6 months of home confinement. One USDA
3 years of probation. Both employees resigned. This           employee pled guilty to supplementation of a
investigation was conducted with several Federal, State,      Government employee’s salary and was sentenced in
and local law enforcement agencies, including FS’ Law         January 2004 to 1 year of probation and a $500 fine.
Enforcement and Investigations organization.                  The other employee was not prosecuted but was
                                                              reprimanded by the agency. This was a joint
                                                              investigation with the FBI and the Defense Criminal
                                                              Investigative Service (DCIS).




                                                                                                                     21
 ONGOING AND PLANNED REVIEWS FOR                             GRAIN INSPECTION, PACKERS AND
 THE FS                                                      STOCKYARDS ADMINISTRATION (GIPSA)

     FS topics that will be covered in ongoing or           The Grain Inspection, Packers and Stockyards
     planned reviews, include:                              Administration facilitates the marketing of livestock,
                                                            poultry, meat, cereals, oilseeds, and related agricultural
     • FS administration of its firefighting safety         products, and promotes fair and competitive trading
       program;                                             practices.
     • the efficiency and effectiveness of contracting
       activities related to the National Fire Plan;        Cattle Broker and Bookkeeper Plead Guilty to
     • FS progress in implementation of the                 Cattle Scam
       Government Performance and Results Act; and
     • FS implementation of the Healthy Forests             OIG, the FBI, and GIPSA jointly investigated a cattle
       Initiative – Hazardous Fuels Reduction.              broker who falsified GIPSA documents in furtherance of
                                                            a scheme to defraud investors, business associates,
     The findings and recommendations from these            and financial institutions out of $166 million. The
     efforts will be covered in future semiannual reports   scheme involved the broker’s misrepresentation to his
     as the relevant audits and investigations are          clients (private investors and financial institutions) of the
     completed.                                             financial status of his business entity and of the number
                                                            of cattle available at the time investments were made.
                                                            Investors relied on untrue, misleading, deceptive, and
                                                            inaccurate information when making their investments.
                                                            When the scheme unraveled, the broker was in control
                                                            of only 5 percent of the cattle for which he was obligated
                                                            to his investors. During the 30-month investigation,
                                                            more than 150 victims from 4 States were identified. In
                                                            November 2003, the broker and his bookkeeper pled
                                                            guilty to five counts each of mail fraud, wire fraud, false
                                                            entries, and criminal forfeiture. Sentencing information
                                                            will be reported in the next semiannual report.




22
    Summary of Audit Activities—October 2003-March 2004
Reports Issued .................................................................................................................................................         46
  Audits Performed by OIG ....................................................................................                40
  Evaluations Performed by OIG ...........................................................................                      0
  Audits Performed Under the Single Audit Act .....................................................                             2
  Audits Performed by Others ................................................................................                   4

Management Decisions Made
  Number of Reports ........................................................................................................................................             36
  Number of Recommendations .......................................................................................................................                     335

Total Dollar Impact (Millions) .......................................................................................................................... $51.6
  Questioned/Unsupported Costs .......................................................................................... $ 5.8ab
     Recommended for Recovery ..........................................................................            $4.4
     Not Recommended for Recovery ...................................................................               $1.4
  Funds To Be Put to Better Use ............................................................................................ $45.8
a   These were the amounts the auditees agreed to at the time of management decision.
b   The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.




    Summary of Investigative Activities—October 2003-March 2004
Reports Issued ...................................................................................................................................................      205
Cases Opened ...................................................................................................................................................        177
Cases Closed .....................................................................................................................................................      289
Cases Referred for Prosecution .........................................................................................................................                 84

Impact of Investigations
  Indictments ....................................................................................................................................................      218
  Convictions ....................................................................................................................................................      139a
  Searches ........................................................................................................................................................      49
  Arrests ...........................................................................................................................................................   213

Total Dollar Impact (Millions) .......................................................................................................................... $59.9
  Recoveries/Collections ........................................................................................................ $ 2.9b
  Restitutions .......................................................................................................................... $50.6c
  Fines .................................................................................................................................... $ 1.4d
  Claims Established .............................................................................................................. $ 3.3e
  Cost Avoidance .................................................................................................................... $ 1.7f

Administrative Sanctions ................................................................................................................................               109
  Employees ........................................................................................................................... 30
  Businesses/Persons ............................................................................................................ 79
a   Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
    therefore, the 139 convictions do not necessarily relate to the 218 indictments.
b   Includes money received by USDA or other Government agencies as a result of OIG investigations.
c   Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d   Fines are court-ordered penalties.
e   Claims established are agency demands for repayment of USDA benefits.
f   Consists of loans or benefits not granted as the result of an OIG investigation.




                                                                                                                                                                               23
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table.


 NEW SINCE LAST REPORTING PERIOD

                                                                                                   Amount With
                                                                              Total Value            No Mgmt.
                                                                              at Issuance            Decision
Agency             Date Issued            Title of Report                     (in dollars)          (in dollars)

FSIS                09/30/03          1. FSIS Oversight of ConAgra                      0                   0
                                         Recall (24601-2-KC)

Multiagency         09/30/03          2. Implementation of ARPA                         0                   0
                                         (50099-12-KC)

                    09/30/03          3. 2000 Crop Disaster Program               20,049               19,649
                                         (50099-15-KC)

RBS                 08/27/03          4. Lender Servicing of a                 5,436,201              224,951
                                         B&I Guaranteed Loan
                                         in Georgia (34601-5-At)

                    09/30/03          5. Liquidation of B&I                      818,121              220,009
                                         Guaranteed Loans
                                         (34601-8-SF)

                    09/30/03          6. Request Audit of B&I                  5,585,136            5,585,136
                                         Guaranteed Loan in
                                         Louisiana (34099-5-Te)

RHS                 06/26/03          7. RRH Tenant Income                     7,781,635            7,781,635
                                         Verification – Gainesville, FL
                                         (04004-3-At)

RUS                 09/08/03          8. Water and Wastewater                672,085,758          508,776,607
                                         Grants (09601-6-KC)




24
 PREVIOUSLY REPORTED BUT NOT YET RESOLVED

These audits are still pending agency action. Some are under judicial, legal, or investigative proceedings. We have
marked those with an asterisk (*) that must be resolved before the agency can act on the recommendations. Details
on the recommendations where management decisions had not been reached have been reported in previous
Semiannual Reports to Congress. Agencies have been informed of actions that must be taken to reach management
decision, but for various reasons the actions have not been completed. The appropriate Under and Assistant
Secretaries have been notified of those audits without management decisions.


                                                                                                      Amount With
                                                                                Total Value             No Mgmt.
                                                                                at Issuance             Decision
Agency              Date Issued             Title of Report                     (in dollars)           (in dollars)

APHIS                02/20/03            9. Safeguards to Prevent Entry                    0                    0
                                            of Prohibited Pests and
                                            Diseases Into the United
                                            States (33601-3-Ch)

                     03/31/03           10. Controls Over Permits To                       0                    0
                                            Import Biohazardous Materials
                                            (33601-4-Ch)

CCC                  12/26/02           11. FY 2002 CCC Financial                          0                    0
                                            Statements (06401-15-FM)

Office of            09/30/98           12. Evaluation of CR Efforts                       0                    0
Civil Rights                                To Reduce Complaints
(CR)                                        Backlog (60801-1-HQ)

                     03/24/99           13. Evaluation of CR Management                    0                    0
                                            of Settlement Agreements
                                            (60801-2-HQ)

                     03/10/00           14. Office of CR Management of                     0                    0
                                            Employment Complaints
                                            (60801-3-HQ)

                     03/10/00           15. Status of Implementation of                    0                    0
                                            Recommendations Made in
                                            Prior Evaluations of Program
                                            Complaints (60801-4-HQ)

CSREES               08/06/02           16. Grants to National Center             1,246,161            1,246,161
                                            For Resources Innovation
                                            (13099-2-Te)

FNS                  05/11/01           17. NSLP Food Service                     3,572,137            3,572,137
                                            Management Companies
                                            (27601-12-KC)

                     09/06/01           18. NSLP – Food Service                   3,537,912            3,198,926
                                            Management Companies
                                            (27601-24-Ch)*

                                                                                                                    25
                                                                                 Amount With
                                                                  Total Value      No Mgmt.
                                                                  at Issuance      Decision
Agency        Date Issued       Title of Report                   (in dollars)    (in dollars)

               11/21/01     19. CACFP – Wildwood, Inc.            36,895,611     36,895,611
                                Phase II (27010-6-KC)

               03/29/02     20. NSLP – Chartwell’s Food              307,711       307,711
                                Service Management
                                Company (27601-13-KC)

               02/07/03     21. FSP Administrative Costs           8,663,131              0
                                in New Mexico
                                (27099-14-Te)

               03/31/03     22. FSP – Employment and               3,152,731       614,600
                                Training Program in
                                Tennessee (27601-12-At)

FSA            03/30/99     23. Payment Limitation - Mitchell        881,924       881,924
                                County, GA (03006-20-At)

               07/30/01     24. 1999 Crop Disaster Program           950,891       950,891
                                (03099-42-KC)

               09/30/02     25. Assessments on Imported            4,583,797      4,583,797
                                Tobacco (03099-164-At)

FSIS           06/21/00     26. Implementation of the Hazard                0             0
                                Analysis and Critical Control
                                Point System (24001-3-At)

               06/21/00     27. Imported Meat and Poultry                   0             0
                                Inspection Process (24099-3-Hy)

               09/30/02     28. Overtime Controls (24099-4-At)              0             0

Multiagency    09/30/98     29. CSREES Managing                    3,824,211         74,366
                                Facilities Construction
                                Grants (50601-5-At)

               03/31/99     30. Private Voluntary                 18,629,558     18,236,625
                                Organization Accountability
                                (50801-6-At)

RBS            01/28/02     31. Lender Servicing of a              1,536,060      1,536,060
                                B&I Guaranteed Loan
                                (34601-3-At)

               01/10/03     32. Lender Servicing of                3,766,908      3,706,908
                                B&I Guaranteed Loans
                                (34601-4-At)


26
                                                                         Amount With
                                                          Total Value      No Mgmt.
                                                          at Issuance      Decision
Agency   Date Issued       Title of Report                (in dollars)    (in dollars)

RD        08/05/02     33. Security Over IT Resources -             0             0
                           Rural Development
                           (85099-2-FM)

RHS       01/08/99     34. RRH Program - Dujardin            195,694       195,694
                           Property Management, Inc.
                           Everett, WA (04801-5-SF)*

          05/25/00     35. RRH Nationwide Initiative       4,922,879      4,919,579
                           in Missouri, St. Louis, MO
                           (04801-2-KC)

          09/28/01     36. RRH, Insurance Expenses,          596,665       499,688
                           Phase II (04601-4-KC)

RMA       09/30/97     37. Crop Insurance on Fresh        15,082,744              0
                           Market Tomatoes
                           (05099-1-At)

          02/28/01     38. FY 2000 FCIC Financial                   0             0
                           Statements (05401-1-HQ)

          03/14/01     39. Crop Insurance for              2,128,843      2,128,843
                           Specialty Crops
                           (05601-4-At)

          05/21/01     40. Review of Written               1,565,730      1,565,730
                           Agreements
                           (05002-1-Te)

          03/15/02     41. Monitoring of RMA’s                      0             0
                           Implementation of
                           Manual 14 Reviews/
                           Quality Control Review
                           System (05099-14-KC)

          09/30/02     42. Viability of 1999 Fall         21,100,000     21,100,000
                           Watermelon Crop
                           Insurance In Texas
                           (05601-8-Te)

          09/30/02     43. Review of Large Insurance       6,998,779      6,998,779
                           Claim for Watermelons
                           (05601-9-Te)

          01/09/03     44. FY 2002 FCIC Financial                   0             0
                           Statements
                           (05401-11-FM)


                                                                                      27
 AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE FOR NEW ENTRIES




1. FSIS Oversight of ConAgra Recall (24601-2-KC),             2. Implementation of the Agricultural Risk
   Issued September 30, 2003                                     Protection Act (ARPA) (50099-12-KC), Issued
                                                                 September 30, 2003
Management decisions have been accepted for 10 of
the 31 recommendations. We recommended that FSIS              We reported that departmental efforts to reconcile FSA
provide clear authority for its access to all internal and    and RMA data regarding producers that carried crop
external plant pathogen and microbial testing results         insurance on 2001 crops were not timely or effective. As
and ensure plants notify FSIS of test results. FSIS           a result, effectiveness of the reconciliation as a tool to
needs to provide a documented management control              enhance program integrity has been compromised and
program that specifies the actions required at each level     the reconciliation process may not be in compliance
in the organization to analyze data, establish criteria to    with legislative requirements. We recommended that
ensure consistent application of its enforcement actions,     RMA and FSA, in consultation with the Under Secretary
and identify options or alternatives to ensure                for Farm and Foreign Agricultural Services, establish an
compliance with regulatory requirements.                      executive-level joint departmental agency task force to
                                                              develop plans for reengineering the Department’s data
FSIS needs to reassess its management control                 reporting for each producer, landowner, and
process over the recall operations, provide a                 policyholder under a single integrated common
compensating control to ensure recalls are timely and         comprehensive information collection system. In
efficient, provide clear directions on traceback collection   addition, we recommended that the agencies develop
and processing, establish enforcement action against          strategies to address conditions reported in the report.
firms that do not fulfill their recall notification           We also recommended that RMA obtain written legal
responsibilities, improve the recall effectiveness checks     opinions as to whether (1) reinsured companies can be
process, and document determinations made for the             required to participate in the data reconciliation process
suitability of new ingredients used in meat products.         and to clarify their roles and responsibilities in resolving
                                                              identified discrepancies and (2) the limited sampling
We also recommended that FSIS strengthen its                  plan approach being used to address and resolve the
monitoring of inspector activities by developing a risk-      discrepancies identified during the 2001 reconciliation
based sampling program, strengthening sampling                meets the requirements of ARPA.
procedures, providing adequate physical security over
the samples, verifying compliance with sampling               3. 2000 Crop Disaster Program (50099-15-KC),
procedures, providing a time-phased plan for targeting           Issued September 30, 2003
and reviewing establishment HACCP plans, furnishing
details on requirements for recurring reassessments,          We identified six producers for whom a reinsured
establishing a proactive technical assistance program         company had changed reported ineligible causes of loss
when HACCP plans are found to be technically                  on irrigated land to eligible losses. We recommended
deficient, providing details on how contaminated              that RMA review the reinsured company’s operations
carcasses will be handled, and supplying information on       and determine whether other ineligible causes of loss
the inspector responsibilities to monitor the disposition     were improperly changed. RMA should specifically
of contaminated products. We are requesting that the          review the indemnities for the six producers cited in the
agency reconsider its initial proposals and provide us        report. Further, any ineligible indemnity amounts
with an alternative corrective action plan.                   disclosed by RMA’s reviews should be recovered and
                                                              reported to FSA, and FSA should recover any improper
                                                              Crop Disaster Program payments based on the
                                                              incorrect indemnities. The agencies generally agreed
                                                              with the audit findings and recommendations. We are
                                                              working with RMA and FSA to achieve management
                                                              decision.

28
4. RBS Lender Servicing of a B&I Guaranteed Loan         recovering only $158,246 of this amount. We have
   in Georgia (34601-5-At) Issued August 27, 2003        requested that RBS provide the documentation it used
                                                         that was supplied to OGC through counsel for the
For the one open recommendation, the agency must         lender to support recovering the lesser amount. When
determine whether a borrower that defaulted on a $5      we have evaluated this documentation, we will
million loan and spent $224,951 for ineligible and       determine the actions necessary for management
questionable purposes should be debarred from            decision.
participation in Government programs. We are working
with the agency to resolve this issue.                   7. RHS Rural Rental Housing Tenant Income
                                                            Verification – Gainesville, FL, (04004-3-At),
5. RBS Liquidation of B&I Guaranteed Loans                  Issued June 26, 2003
   (34601-8-SF), Issued September 30, 2003
                                                         Four recommendations are without management
Three recommendations remain without management          decision. We recommended that the RHS State Office
decision, which require the collection of almost         (a) collect the overpaid assistance, (b) revise
$220,000 of improper or unsupported liquidation          agreements with the appropriate State agency to enable
expenses and protective advances. RBS is consulting      project managers to use the wage and benefit
with USDA’s Office of the General Counsel (OGC) to       information to certify tenant eligibility, (c) develop and
determine whether there is a legal basis for seeking     issue a policy requiring the use of wage and benefit
recovery of the recommended amounts. To reach            data at the time tenants are certified as eligible for the
management decision for these recommendations, we        program, and (d) recompute assistance amounts for
will need a copy of the OGC decision, or documentation   tenants in the project we reviewed and recover improper
that accounts receivable have been established in the    payments. In order to reach management decision,
agency’s accounting records for the recommended          RHS should provide documentation of corrective actions
amounts.                                                 planned, including dates for their completion.

6. RBS Request Audit of B&I Guaranteed Loan in           8. RUS Water and Wastewater Grants (09601-6-
   Louisiana (34099-5-Te), Issued September 30,             KC), Issued September 8, 2003
   2003
                                                         Three recommendations remain open. RUS needs to
One recommendation has not been resolved. We             inform us of the timeframes for implementing the actions
recommended that RBS recover $1.3 million, caused by     we have agreed upon.
negligence, from the lender. RBS has proposed




                                                                                                                29
 INDICTMENTS AND CONVICTIONS

Between October 1, 2003, and March 31, 2004, OIG             Indictments and Convictions
completed 205 investigations. We referred 84 cases to        October 1, 2003 - March 31, 2004
Federal, State, and local prosecutors for their decision.
                                                             Agency         Indictments           Convictions*
During the reporting period, our investigations led to
218 indictments and 139 convictions. The period of time      AMS                   1                     4
to obtain court action on an indictment varies widely;       APHIS                26                     9
therefore, the 139 convictions do not necessarily relate     ARS                   1                     3
to the 218 indictments. Fines, recoveries/collections,       ERS                   0                     2
restitutions, claims established, cost avoidance, and        FNS                 115                    69
administrative penalties resulting from our investigations   FS                    1                     2
totaled about $59.9 million.                                 FSA                  46                    28
                                                             FSIS                  4                     5
The following is a breakdown, by agency, of indictments      NRCS                  3                     3
and convictions for the reporting period.                    OALJ                  2                     0
                                                             OCFO                  1                     2
                                                             RBS                   4                     0
                                                             RHS                   7                    10
                                                             RMA                   7                     1
                                                             SEC                   0                     1
                                                                                 ___                   ___
                                                             Totals              218                   139

                                                             *
                                                             This category includes pretrial diversions.




30
 OFFICE OF INSPECTOR GENERAL HOTLINE

The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received 443
complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 1
displays the volume and type of the complaints we
received, and figure 2 displays the disposition of those
complaints.




Figure 1                                                   Figure 2

Hotline Complaints                                         Disposition of Complaints
October 1, 2003 to March 31, 2004                          October 1, 2003 to March 31, 2004
(Total = 443)
                                                                                  Referred to
                                Health/Safety                                   USDA Agencies
                                                               Referred to
                                      7                                          for Response
                                               Opinion/      FNS for Tracking                    Referred to
                                                                   61                 220       State Agency
Reprisal                                     Information
                                                  57                                                  2
  1
                Participant
                  Fraud
                   160




Bribery                                                      Referred to
   2                                       Employee        USDA or Other                          Referred to
                                           Misconduct       Agencies for        Filed Without    OIG Audit or
                  Waste/                      110           Information-           Referral-    Investigations
              Mismanagement                                No Response           Insufficient     for Review
                   106                                        Needed             Information          38
                                                                 73                   49




                                                                                                           31
 FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
 FOR THE PERIOD OCTOBER 1, 2003 – MARCH 31, 2004


Number of FOIA/PA Requests Received                 105

Number of FOIA/PA Requests Processed:                53

     Number Granted                     15
     Number Partially Granted           17
     Number Nondisclosed                10

Reasons for Denial:

     No Records Available                 3
     Referred to Other Agencies           3
     Denied in Full (Exemption 7A)        4

Requests for OIG Reports From Congress
and Other Government Agencies

     Received                           27
     Processed                          23

Appeals Processed                                     1

     Appeals Completely Upheld            0
     Appeals Partially Reversed           0
     Appeals Completely Reversed          0
     Appeals Requests Withdrawn           1

Number of OIG Reports/Documents                      43
Released in Response to Requests

NOTE: A request may involve more than one report.

During this 6-month period, 44 audit reports were
posted to the Internet at the OIG Web site:
www.usda.gov/oig/whatsnew.htm.




32
Appendix I


                                       INVENTORY OF AUDIT REPORTS
                                    WITH QUESTIONED COSTS AND LOANS
                               FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004


                                                                             DOLLAR VALUES

                                                              QUESTIONED             UNSUPPORTED a
                                                  NUMBER    COSTS AND LOANS         COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                            37       149,031,962             86,002,502
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2003

B. WHICH WERE ISSUED DURING                            9         1,566,497                   1,893
   THIS REPORTING PERIOD

      TOTALS                                          46      $150,598,459            $86,004,395

C. FOR WHICH A MANAGEMENT                             13
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

      (1) DOLLAR VALUE OF
          DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                               $4,446,838             $1,489,109

         NOT RECOMMENDED FOR RECOVERY                           $1,353,520                     $0

      (2) DOLLAR VALUE OF                                      $12,376,453             $1,250,855
          COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT                            33      $133,107,404            $83,593,713
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

      REPORTS FOR WHICH NO                            25      $131,677,045            $83,591,820
      MANAGEMENT DECISION WAS
      MADE WITHIN 6 MONTHS
      OF ISSUANCE

a
    Unsupported values are included in questioned values.




                                                                                                      33
Appendix II


                                INVENTORY OF AUDIT REPORTS
                   WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                         FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004


                                      NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT              12          $710,047,556
   DECISION HAD BEEN MADE
   BY OCTOBER 1, 2003

B. WHICH WERE ISSUED DURING              6           $51,269,334
   THE REPORTING PERIOD

     TOTALS                             18          $761,316,890

C. FOR WHICH A MANAGEMENT                7
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

     (1) DOLLAR VALUE OF                             $45,800,461
         DISALLOWED COSTS

     (2) DOLLAR VALUE OF                                     $0
         COSTS NOT DISALLOWED

D. FOR WHICH NO MANAGEMENT              11          $715,516,429
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

     REPORTS FOR WHICH NO                8          $707,899,286
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE




34
Appendix III


                                SUMMARY OF AUDIT REPORTS RELEASED
                             FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004

DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004, THE OFFICE OF
INSPECTOR GENERAL ISSUED 46 AUDIT REPORTS, INCLUDING 4 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                           QUESTIONED    UNSUPPORTEDa    FUNDS BE
                                                 AUDITS      COSTS          COSTS         PUT TO
AGENCY                                          RELEASED   AND LOANS      AND LOANS     BETTER USE

ANIMAL AND PLANT HEALTH                1
  INSPECTION SERVICE
CHIEF INFORMATION OFFICER              1
COMMODITY CREDIT CORPORATION           1
ECONOMIC RESEARCH SERVICE              1
FARM SERVICE AGENCY                    2                     $918,390
FOOD AND NUTRITION SERVICE            14                     $261,335         $1,893       $21,228
FOOD SAFETY AND INSPECTION SERVICE     1
FOREST SERVICE                         2                                                $42,525,000
GRAIN INSPECTION, PACKERS AND          1
  STOCKYARDS ADMINISTRATION
MULTIAGENCY                            8                                                 $1,123,106
OFFICE OF BUDGET AND PROGRAM ANALYSIS  1
OFFICE OF THE CHIEF FINANCIAL OFFICER  2
OFFICE OF THE CHIEF ECONOMIST          1
RISK MANAGEMENT AGENCY                 4                     $386,772                    $7,600,000
RURAL DEVELOPMENT                      3
RURAL HOUSING SERVICE                  2
RURAL TELEPHONE BANK                   1

    TOTALS                                          46      $1,566,497        $1,893    $51,269,334

    TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                           38
      MULTIAGENCY AUDIT                              8
      SINGLE AGENCY EVALUATION                       0
      MULTIAGENCY EVALUATION                         0

    TOTAL RELEASED NATIONWIDE                       46

    TOTAL COMPLETED UNDER CONTRACT b                 4

    TOTAL SINGLE AUDIT ISSUED c                      2

a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
 Indicates audits completed as Single Audit



                                                                                         – – Continued

                                                                                                      35
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004

                                                                     QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS         PUT TO
RELEASE DATE     TITLE                                               AND LOANS      AND LOANS     BETTER USE


ANIMAL AND PLANT HEALTH INSPECTION SERVICE

330990004CH    MANAGEMENT AND SECURITY OF APHIS
2004/03/03     INFORMATION TECHNOLOGY RESOURCES

 TOTAL: ANIMAL AND PLANT HEALTH INSPECTION SERVICE              1

CHIEF INFORMATION OFFICER

880990005FM    FY 2003 NATIONAL INFORMATION
2003/10/20     TECHNOLOGY CENTER GENERAL CONTROLS

 TOTAL: CHIEF INFORMATION OFFICER                               1

COMMODITY CREDIT CORPORATION

064010016FM    MONITORING FISCAL YEAR 2003 COMMODITY
2003/11/07     CREDIT CORPORATION FINANCIAL STATEMENT
               AUDIT

 TOTAL: COMMODITY CREDIT CORPORATION                            1

ECONOMIC RESEARCH SERVICE

140990001TE    MANAGEMENT AND SECURITY OF ERS INFORMATION
2004/03/31     TECHNOLOGY RESOURCES

 TOTAL: ECONOMIC RESEARCH SERVICE                               1

FARM SERVICE AGENCY

036010020KC    REVIEW OF 2002 FARM BILL COMMODITY LOAN
2003/12/22     AND PAYMENT RATES
036010042TE    FARM SERVICE AGENCY FARM PROGRAMS AUDIT                  $918,390
2004/03/19

 TOTAL: FARM SERVICE AGENCY                                     2       $918,390

FOOD AND NUTRITION SERVICE

270100005TE    ACCOUNTABILITY AND OVERSIGHT OF THE NATIONAL
2004/01/23     SCHOOL LUNCH PROGRAM
270100009TE    ACCOUNTABILITY AND OVERSIGHT OF THE NATIONAL              $18,392
2003/10/09     SCHOOL LUNCH PROGRAM - STAR PROGRAMS, INC.,
               INGRAM, TX
270100014KC    NATIONAL SCHOOL LUNCH PROGRAM - LAWRENCE, KS
2004/03/26
270100015KC    NATIONAL SCHOOL LUNCH PROGRAM, IOLA, KS
2003/10/15
270100016CH    ACCOUNTABILITY AND OVERSIGHT OF THE NATIONAL             $136,138                       $4,085
2003/12/03     SCHOOL LUNCH PROGRAM
270100016KC    NATIONAL SCHOOL LUNCH PROGRAM, LEAVENWORTH, KS              $684         $684
2004/02/18
270100017KC    NATIONAL SCHOOL LUNCH PROGRAM, OSKALOOSA, KS
2003/10/15
270100019KC    NATIONAL SCHOOL LUNCH PROGRAM, ODESSA, MO                  $1,209      $1,209
2004/02/18
270100020KC    NATIONAL SCHOOL LUNCH PROGRAM, KEARNEY, MO                  $959                        $8,862
2004/03/25
270100021KC    NATIONAL SCHOOL LUNCH PROGRAM, PLATTE COUNTY, MO                                        $8,281
2004/03/24
270990018TE    STATE OF NEW MEXICO CONTINUED MONITORING                  $95,553
2004/03/18     EBT SYSTEM DEVELOPMENT
270990023SF    FOOD STAMP EMPLOYMENT AND TRAINING PROGRAM                 $8,400
2004/02/19     IN CALIFORNIA
                                                                                                 – – Continued

36
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004

                                                                          QUESTIONED   UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                                COSTS         COSTS         PUT TO
RELEASE DATE       TITLE                                                  AND LOANS     AND LOANS     BETTER USE


270990024SF      NATIONAL SCHOOL LUNCH PROGRAM - REVIEW OF
2004/03/26       LOCAL SCHOOL DISTRICT
270990062HY      FOLLOW UP ON THE ADMINISTRATION AND MANAGEMENT
2004/03/08       OF THE NEW YORK WIC PROGRAM

 TOTAL: FOOD AND NUTRITION SERVICE                                 14       $261,335      $1,893          $21,228

FOOD SAFETY AND INSPECTION SERVICE

240990005HY      IMPORTED MEAT AND POULTRY INSPECTION PROCESS
2003/12/29       EQUIVALENCE DETERMINATIONS – PHASE III

TOTAL: FOOD SAFETY AND INSPECTION SERVICE                           1

FOREST SERVICE

084010003FM      FISCAL YEAR 2003 FOREST SERVICE FINANCIAL STATEMENTS
2004/01/26
086010037SF      FS PROCUREMENT OF FIREFIGHTING LEAD PLANES                                            $42,525,000
2004/03/26

 TOTAL: FOREST SERVICE                                              2                                  $42,525,000

GRAIN INSPECTION, PACKERS AND STOCKYARDS ADMINISTRATION

300990001SF      MANAGEMENT AND SECURITY OF INFORMATION
2003/11/07       TECHNOLOGY RESOURCES AT GIPSA

 TOTAL: GRAIN INSPECTION, PACKERS AND STOCKYARDS                    1
        ADMINISTRATION

MULTIAGENCY

500210006SF      QUALITY CONTROL REVIEW – MADERA COUNTY,
2003/12/18       CALIFORNIA, FYE 6/30/01
500220004KC      A-133 AUDIT – BERTIE COUNTY, NORTH CAROLINA (FYE 2002)
2004/02/09
500990013KC      HOMELAND SECURITY ISSUES FOR USDA GRAIN
2004/02/23       AND COMMODITIES INVENTORIES
504010051FM      USDA CONSOLIDATED FINANCIAL STATEMENTS
2004/01/26       FOR FISCAL YEAR 2003
506010006TE      CONTROLS OVER PLANT VARIETY PROTECTION
2004/03/04       AND GERMPLASM STORAGE
506010007CH      ALLOCATION AND USE OF HOMELAND SECURITY FUNDS                                          $1,123,106
2004/03/31
506010009AT      CONTROLS OVER CHEMICALS AND RADIOACTIVE
2004/03/24       MATERIALS AT USDA FACILITIES
506010010AT      FOLLOWUP REVIEW ON THE SECURITY OF
2004/03/08       BIOHAZARDOUS MATERIAL AT USDA LABORATORIES

 TOTAL: MULTIAGENCY                                                 8                                   $1,123,106

OFFICE OF BUDGET AND PROGRAM ANALYSIS

390990001AT      FY 2003 OBPA INFORMATION TECHNOLOGY
2004/01/12       SECURITY REVIEW

 TOTAL: OFFICE OF BUDGET AND PROGRAM ANALYSIS                       1




                                                                                                     – – Continued

                                                                                                                37
                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   FROM OCTOBER 1, 2003, THROUGH MARCH 31, 2004

                                                                       QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                             COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                                AND LOANS      AND LOANS    BETTER USE


OFFICE OF THE CHIEF FINANCIAL OFFICER

114010015FM    FISCAL YEAR 2003 NATIONAL FINANCE CENTER INTERNAL
2003/11/19     CONTROL STRUCTURE REVIEW
114010019FM    AGREED UPON PROCEDURES: RETIREMENT, HEALTH
2003/11/03     BENEFITS, AND LIFE INSURANCE WITHHOLDINGS
               CONTRIBUTION AND SUPPLEMENTAL HEADCOUNT
               REPORT SUBMITTED TO THE OFFICE OF PERSONNEL
               MANAGEMENT

 TOTAL: OFFICE OF THE CHIEF FINANCIAL OFFICER                      2

OFFICE OF CHIEF ECONOMIST

120990001AT    FISCAL YEAR 2003 OCE INFORMATION TECHNOLOGY
2004/01/23     SECURITY REVIEW

 TOTAL: OFFICE OF CHIEF ECONOMIST                                  1

RISK MANAGEMENT AGENCY

050990007SF    INDEMNITY PAYMENTS TO PRUNE PRODUCERS                     $386,772
2004/03/31     IN CALIFORNIA - PRODUCER D
050990017KC    RISK MANAGEMENT AGENCY ESTABLISHED MAX
2004/03/31     PRICES
054010012FM    FISCAL YEAR 2003 FCIC FINANCIAL STATEMENTS
2003/11/07
056010011TE    REVIEW OF WRITTEN AGREEMENTS                                                          $7,600,000
2003/12/30

 TOTAL: RISK MANAGEMENT AGENCY                                     4     $386,772                    $7,600,000

RURAL DEVELOPMENT

850990001HY    SURVEY OF HOMELAND SECURITY ISSUES AT
2004/02/03     RURAL DEVELOPMENT
850990004FM    REVIEW OF RURAL DEVELOPMENT’S INFORMATION
2004/03/31     TECHNOLOGY RESOURCES SECURITY
854010009FM    FISCAL YEAR 2003 RD FINANCIAL STATEMENTS
2003/11/07

 TOTAL: RURAL DEVELOPMENT                                          3

RURAL HOUSING SERVICE

040100001AT    AUDIT OF LOCAL GOVERNMENT MANAGEMENT
2004/01/09     OF MULTI-FAMILY HOUSING
046010008CH    RURAL DEVELOPMENT’S ESCROW PROCESS FOR
2004/02/02     SINGLE FAMILY HOUSING BORROWERS

 TOTAL: RURAL HOUSING SERVICE                                      2

RURAL TELEPHONE BANK

154010004FM    MONITORING FISCAL YEAR 2003 RTB FINANCIAL
2003/11/07     STATEMENTS

TOTAL: RURAL TELEPHONE BANK                                        1

       GRAND TOTAL:                                            46       $1,566,497      $1,893      $51,269,334




38
Abbreviations of Organizations
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
CCC      Commodity Credit Corporation
CR       Office of Civil Rights
CSREES   Cooperative State Research, Education, and Extension Service
DCIS     Defense Criminal Investigative Service
ERS      Economic Research Service
FAS      Foreign Agricultural Service
FCIC     Federal Crop Insurance Corporation
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GAO      U.S. General Accounting Office
GIPSA    Grain Inspection, Packers and Stockyards Administration
NASS     National Agricultural Statistics Service
NFC      National Finance Center
NITC     National Information Technology Center
NRCS     Natural Resources Conservation Service
OALJ     Office of Administrative Law Judges
OBPA     Office of Budget and Program Analysis
OCE      Office of the Chief Economist
OCFO     Office of the Chief Financial Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPPM     Office of Procurement and Property Management
RBS      Rural Business-Cooperative Service
RD       Rural Development
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
SEC      Office of the Secretary
USDA     U.S. Department of Agriculture
WAOB     World Agricultural Outlook Board
U.S. DEPARTMENT OF AGRICULTURE
OFFICE OF INSPECTOR GENERAL
STOP 2309
1400 INDEPENDENCE AVE., SW
WASHINGTON, DC 20250-2309




                                 www.usda.gov/oig
